<html>
<title> - INFORMATION SHARING AND NATIONAL SPECIAL SECURITY EVENTS: PREPARING FOR THE 2008 PRESIDENTIAL CONVENTIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 

INFORMATION SHARING AND NATIONAL SPECIAL SECURITY EVENTS: PREPARING FOR 
                   THE 2008 PRESIDENTIAL CONVENTIONS 

=======================================================================

                             FIELD HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 10, 2007

                               __________

                           Serial No. 110-66

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

48-961 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     JANE HARMAN, California, Chair

NORMAN D. DICKS, Washington          DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
ED PERLMUTTER, Colorado              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (ii)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jane Harman, a Representative in Congress from the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  from the State of Washington, Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     3
The Honorable Ed Perlmutter, a Representative in Congress from 
  the State of Colorado..........................................     4

                               WITNESSES
                                Panel I

Mr. Michael H. Battista, Deputy Chief, Denver Police Department:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Justin DeMello, Director, Denver Office of Emergency 
  Management:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Tim Koerner, Assistant Director, U.S. Secret Service:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9

                                Panel II

Lloyd Burton, Ph.D., Graduate School of Public Affairs, 
  University of Colorado at Denver:
  Oral Statement.................................................    42
  Prepared Statement.............................................    45
Mr. Daniel J. Oates, Chief of Police, Aurora Police Department:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40
Major James M. Wolfinbarger, Director, Colorado Office of 
  Preparedness, Security and Fire Safety:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29


  FIELD HEARING ON INFORMATION SHARING AND NATIONAL SPECIAL SECURITY 
        EVENTS: PREPARING FOR THE 2008 PRESIDENTIAL CONVENTIONS

                              ----------                              


                        Friday, August 10, 2007

              U.S. House of Representatives
                     Committee on Homeland Security
    Subcommittee on Intelligence, Information Sharing, and 
                                  Terrorism Risk Assessment
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Aurora City Council Chambers, Aurora Municipal Center, 15151 
East Alameda Parkway, Aurora, Colorado, Hon. Jane Harman 
[chairwoman of the Subcommittee] presiding.
    Present: Representatives Harman and Reichert.
    Also Present: Representative Perlmutter.
    Ms. Harman. Good morning, everyone. The hearing will come 
to order, and I would like to welcome you all to Ed 
Perlmutter's Congressional District.
    This is Ed Perlmutter to my left, one of the world's best 
members of Congress.
    [Applause.]
    Ever.
    [Laughter.]
    I hope his mother is in the crowd.
    Mr. Perlmutter. My mother is here. No, no.
    [Laughter.]
    Ms. Harman. Now to more sober business. A year from now 
thousands of people from across the country will arrive in 
Denver right nearby, and in Minneapolis/St. Paul, Minnesota, to 
participate in one of our most cherished national traditions--
the selection of nominees for the next President of the United 
States.
    National political conventions offer the possibility of 
high political drama and are top targets for terrorists. I am 
not alone in this assessment. Last month the intelligence 
community released a national intelligence estimate which 
concluded that al-Qa'ida continues to focus ``on prominent 
political, economic infrastructure targets with the goal of 
producing mass casualties, visually dramatic destruction, 
significant economic aftershocks and/or fear among the U.S. 
population.''
    Professor Lloyd Burton, who will offer testimony on our 
second panel this morning, has summed up why the conventions 
could be at risk. He says, ``Among the most vital functions 
democratic governments perform is that of ensuring the public's 
ability to choose their leaders.'' He notes, ``So the enemies 
of American democracy--so for the enemies of American 
democracy, an important goal is to disrupt the very processes 
by which we make these choices.'' And he says that conventions 
are gatherings at which our nation's most powerful political 
leaders, and those who may succeed them, will appear, and at 
which crucial decisions regarding the conveyance of that power 
will be made.
    Peter Brooks, a senior fellow at The Heritage Foundation, 
and a former CIA operative, has reached the same conclusion. 
``A political convention,'' says Brooks, ``has all of the 
elements of a terrorist target. It has got a lot of people 
there, it is very symbolic, and it is also very political.'' 
This is prime time for terrorists to insert themselves, not 
only to kill Americans but to insert themselves into our 
political process.
    Let me be clear: when al-Qa'ida terrorists next strike, 
they will not care if they are killing Democrats or 
Republicans. They won't check our party registration first. So 
as Americans we must come together to create strategies to 
prevent them from attacking us, our institutions, and our 
democratic ideals.
    I am proud to say that this Subcommittee has made finding 
ways to disrupt and prevent political attacks the centerpiece 
of our work, and I am very pleased that it is getting national 
attention. And Ed Perlmutter even talked about us on TV this 
morning, I hear.
    I am joined today by Ranking Member Dave Reichert, the 
former sheriff of King County, Washington, and Colorado's own 
Ed Perlmutter, both of whom have worked closely with me to 
protect our communities by improving information-sharing 
between the Federal Government and its state, local, and tribal 
partners, and the private sector.
    Simply put, we need to get a lot better at providing 
accurate, actionable, and timely intelligence information to 
America's first preventers, who are sitting right in front of 
us, in order to stop the terrorists in their tracks. They need 
this information to know which people and behaviors to look 
for, what facilities to harden, and how best to deploy limited 
resources to protect lives and property now, during next 
summer's conventions, and beyond.
    We recognize the extraordinary demands this places on 
Denver, and especially right now on Minneapolis/St. Paul, which 
must also now contend with the tragic bridge collapse of August 
1. By examining how local officials are preparing for the 
conventions, we can determine how best to fix any gaps or 
shortfalls. To mangle a popular slogan, ``What happens in 
Denver, and what happens in Minneapolis/St. Paul, shouldn't say 
there. The lessons learned here, and the lessons learned in 
Minnesota, should hopefully be the right lessons, and they 
should be applied everywhere.''
    But establishing information-sharing best practices isn't 
just about keeping people safe. It is also about protecting 
their constitutional rights to assemble and speak freely during 
the conventions themselves. I am sure you have all read about 
some questions about how New York handled the Republican 
convention there a few years ago.
    Those are just questions. Obviously, the intention was to 
protect people in that city. But since we know those questions 
are out there, it is important to focus on how we can do two 
things at once, and those are keep us safe and protect the core 
values on which this country was founded.
    Our first witnesses hail from the United States--our first 
witness is from the United States Secret Service, and other 
witnesses are from the Denver Police Department and the Office 
of Emergency Management.
    Our second panel will address issues with reference to 
fusion centers, which I have just spoken of. That is this idea 
about sharing information from all levels of government and the 
lessons learned from other national special security events. 
The convention here has been designated a national special 
security event, such as Presidential inaugurations and other 
activities, major sports events. And I encourage them to listen 
carefully to what they hear from the first panel.
    Let me welcome you all, and now ask Ranking Member Sheriff 
Reichert for any opening remarks he may wish to make.
    Mr. Reichert. Thank you, Madam Chair. It is a pleasure to 
be here this morning, and we all know--every one of us, 434 
members of Congress--recognize the outstanding contribution 
that your Congressman has brought to the House of 
Representatives. And truly, you know, I am the only Republican 
sitting up here this morning with my two friends.
    This is a Subcommittee that has been operating in a very 
bipartisan way, and we have been successful in passing 
legislation that we hope helps keep America safe. So it has 
been an honor to work with Chairwoman Harman, and to have Ed as 
a partner in this effort has really been a great advantage for 
this Subcommittee.
    So my background is, and the Chairwoman just touched upon 
it briefly, I was the Sheriff in King County, Seattle, 
Washington, and I experienced 33 years in law enforcement 
there, starting out in a patrol car. So I have seen the action 
from the police street car, police vehicle, all the way up to 
working with federal agencies as the CEO of the Sheriff's 
Office, which had about 1,100 employees.
    And it is--you know, it is a tough job to manage 
information sharing. It is a tough job to bring federal 
agencies together. It is a tough job to bring local agencies 
together, let alone reach out and bring in federal Secret 
Service agents and FBI and DEA and ATF, etcetera, to come in 
and share information with each other. It is a hard thing. 
There is a lot of turf battles that I know other people in this 
audience recognize takes place, but we have to overcome that, 
and I believe as true professionals in the law enforcement 
field we will.
    It is also very hard for all of us to balance, really--and 
the Chairwoman touched on this topic, too--civil liberties and 
security. And after September 11, certainly that became a huge 
discussion across this nation as to how we are going to do 
that. In fact, we had a tremendous debate within the last week 
of Congress over that issue, and it is still going to be 
debated for some time to come.
    But my experience in the Sheriff's Office during WTO in 
1999--unfortunately, again, another topic the Chairwoman 
touched upon is to share information and experiences, and 
Washington, D.C. benefitted from the experiences that we felt 
in Seattle during WTO. But there is a fine balance between 
balancing your civil liberties and our freedoms and security, 
and it is the law enforcement agencies really that are the ones 
who keep that balance intact.
    And, you know, I would like to--someone once told me that 
freedom is on a sort of a continuum, and you have the freedoms 
to and the freedom from, and we always--you know, we take an 
oath to protect those freedoms to worship, to speak, those 
guaranteed by the Constitution, and those freedoms from--on the 
other side, we take an oath to protect you, to keep you secure, 
and during WTO we lost that ability.
    People felt their freedoms were more important than others 
and stomped all over the freedoms of other people in the city 
of Seattle. The police had to crack down and put up barriers 
and put up curfew hours and block off certain areas of this 
city. We lost freedom in Seattle, lost it, couldn't go where we 
wanted to go, couldn't do what we wanted to do, and couldn't be 
where we wanted to be at a certain time.
    But after the police came in, brought peace and order, they 
moved out and freedom came back and the balance was restored. 
And that on a national level, ladies and gentlemen, is what we 
are doing today. And we have to do that to balance our freedom, 
protect our freedoms. And I had a prepared written statement 
that I am not going to read, because I just felt like I wanted 
to speak to you from the heart this morning, about what you do 
and how much we appreciate what you do, how much we understand 
what you do.
    And we don't want to get in your way and create legislation 
that makes it more difficult, and that is why we are here this 
morning--to listen to what you have to say, so that we can work 
together to build legislation that makes this country safer and 
makes your job easier.
    So thank you very much, Madam Chair. I yield.
    Ms. Harman. Yes. Thank you, Dave. I thought those remarks 
were really very important. I would just add a thought to what 
you said, which is that freedom and security are not a zero-sum 
game. It is not that you get more of one by getting less of the 
other. I really see it as a positive-sum or a negative-sum 
game. You either get more of both or less of both, and it is 
our job I think as members of this Subcommittee in the House, 
and I think your jobs, to make sure we get more of both.
    And I would now ask unanimous consent to waive our 
Subcommittee rules and make an exception. The rules say that 
only the chairman and ranking member can make opening 
statements, but I know everybody here wants to hear some 
opening remarks and some local introductions from Ed 
Perlmutter. So I yield for opening remarks to our member, Ed 
Perlmutter.
    Mr. Perlmutter. Thank you, Madam Chair. In the protocol, 
ordinarily I am the most junior member of this Committee, and 
ordinarily I don't get to say anything until the very end of a 
Committee hearing. But I do want to say that I feel very 
fortunate to have been appointed to the Intelligence Committee 
to serve with these two Congressmen next to me.
    Jane Harman was just given an award by the Central 
Intelligence Agency for the work that she has done for dozens 
of years in connection with the intelligence community. There 
is nobody who understands the work that the CIA, FBI, the NSA, 
all of the intelligence community, she understands it better 
than anybody in the Congress, having reviewed it for years and 
years and years.
    And then, to have a gentleman like Dave Reichert, who 
understands the local law enforcement piece as well as he does, 
I just feel so fortunate to be part of this Committee. We work 
together in a bipartisan way. The rancor that sometimes you see 
between Democrats and Republicans does not exist on this 
Committee, all of us looking to develop the security and the 
safety of our country and our communities without damaging 
civil liberties in the process. And so I just am fortunate, and 
I thank you, too, for letting me be on this Committee.
    Now, I do want to make some introductions, and I want to 
thank the city of Aurora for hosting this hearing this morning. 
This is our third hearing. We have had one in Los Angeles, one 
in Seattle, and now here in Aurora. And, quite frankly, I think 
this is the best place to hold a hearing of those three.
    [Laughter.]
    And I would like to introduce--Mayor Ed Tower is here in 
the audience, and three members of the Aurora City Council are 
our hosts, and they are--Debra Wallace is here, and Larry Beer 
I saw earlier, and Ryan Frazier. So to the City Council and to 
you, Mr. Mayor, thank you for hosting this event for us.
    I also want to introduce Kathleen Beatty, who is Dean of 
the School of Public Affairs for the University of Colorado. 
They have been participating in setting up this hearing today. 
Major General Mason Whitney, who was our Commandant of the 
National Guard, is now the head of our Emergency Management 
Services for the state, is here as well, and the Arapahoe 
County Treasurer, Doug Milliken.
    So thank all of you, and then I would just like to share a 
few comments in preparation for today's hearing. In August of 
2008, the Democratic National Convention will be held in 
Denver, Colorado, and one week later we will have the 
Republican National Convention in St. Paul, Minnesota.
    Presidential nominating conventions are critical parts in 
an American democracy, formally nominating the candidates for a 
President and Vice President. And for the Democratic National 
Convention in 2008, we expect 6,000 delegates, 15- to 25,000 
guests, and more than 15,000 media in our Denver metropolitan 
region.
    In addition, there will be an unknown number of protesters 
and other potential security concerns. And recognizing both the 
security and democratic significance of these conventions, 
Presidential conventions have been classified, as the 
Chairwoman said, national special security events. Not many of 
these occur in the nation, but this, because of its--it is a 
magnet for the media. It is also a magnet for people who might 
want to do us harm.
    So as the lead federal agency, we have the United States 
Secret Service here with us today, and their experience 
involves working closing with local and state law enforcement 
for Presidential security detail. And they are given authority 
in planning and executing the security measures related to 
these events in coordination with its partners.
    Colorado recently has experienced major security events, 
one being the World Youth Day when the Pope visited Aurora and 
the Denver metro area, and the G-8 Summit of 1997. Law 
enforcement and first responder communities received high 
praise for their performance on those events, but Colorado has 
not hosted an event of the magnitude of a Presidential 
convention, a national convention, since September 11, nor has 
it hosted a Presidential or a national convention for 100 
years. Our last one was in 1908.
    As we all know, that day, September 11, significantly 
changed our ideas of the threats we face, and the methods we 
use to guard against them. Simply put, this Democratic National 
Convention next year will be the largest security challenge for 
a single event in our state's history. And to successfully 
secure our community we must have our emergency management 
agencies working with their federal partners to create a 
thorough game plan with all stakeholders fully capable of and 
prepared for their respective roles.
    And there will be venues for the convention throughout the 
Denver metropolitan area. It won't only be in Denver, so it 
will have to be a team approach to this. In executing this 
plan, our local first responders will be required to make 
large-scale commitments and sacrifices, and Aurora already had 
offered up the services of 300 of its law enforcement officers 
to assist the city of Denver in connection with this event.
    So this is something that will take tremendous teamwork and 
sharing and coordination with the city of Denver and the Secret 
Service being in charge, but it is a partnership and one that 
we as a Committee, and we as a Congress, will want to see 
executed to the best. We hope that what will come from this is 
not only the creation of a security infrastructure for the 
Denver metropolitan region for the convention, but one that 
will remain with us on a permanent basis, not something that we 
just set aside after the convention is over.
    We have two excellent panels to talk to us today about 
measures that are being taken and the planning that is going to 
go forward, and I just thank all of you for being here today. I 
thank the Committee for having this hearing in Colorado. And 
with that, I will end my remarks.
    Thank you.
    Ms. Harman. Thank you, Ed.
    It is now time to welcome our first panel. Our first 
witness, Timothy Koerner, is the Assistant Director of the 
Secret Service's Office of Protective Operations, where he 
manages the agency's protective operations. He is responsible 
for overseeing security preparations both for the Democratic 
and Republican National Conventions next summer.
    He previously served as the Deputy Assistant Director of 
the Office of Protective Operations where he was responsible 
for developing and implementing protective policy and 
overseeing operations for the Secret Service in this field. He 
was designated by the Secretary of Homeland Security to serve 
as the Principal Federal Official, PFO, for the 55th 
Presidential Inauguration and the 2005 State of the Union 
Address.
    Our second witness, Michael Battista, is the Deputy Chief 
of Operations at the Denver Police Department. As the 
Department's second in command, Mr. Battista is responsible for 
coordinating the Denver Police Department's preparations for 
next August's convention with the Secret Service and other 
federal, state, and local entities.
    His responsibilities will include not only the convention 
site and related events but also the entire city of Denver, to 
ensure that the normal level of police service to Denver's 
citizens is maintained.
    Our third witness, Justin DeMello, is the Director of the 
Denver Office of Emergency Management. He oversees all aspects 
of emergency response and recovery operations--planning, 
logistics, training exercises, and community outreach. In 
addition, Mr. DeMello serves as the chair for the Department of 
Homeland Security's Urban Area Security Initiative, UASI, in 
Denver.
    Mr. DeMello served as a federal coordinating officer for 
FEMA from 2003 to 2006, and deployed to 22 federally declared 
disasters, 15 of which he served as the lead federal official. 
I would just add, Mr. DeMello, we hope your services will not 
be needed next August.
    Without objection, your full statements will be inserted in 
the record, and I now would urge each of you to summarize, in 
five minutes or less, your statements. And we will all be 
asking you questions anyway, and we do have your statements in 
the record, so it would be most helpful if we could have an 
exchange rather than use up all our time in reading prepared 
text.
    So now we will start with our Secret Service witness, 
Timothy Koerner.

 STATEMENT TIM KOERNER, ASSISTANT DIRECTOR, U.S. SECRET SERVICE

    Mr. Koerner. Good morning, Madam Chairwoman, Ranking Member 
Reichert, and Congressman Perlmutter. Thank you for allowing me 
the opportunity to discuss the Secret Service's role in 
protecting the upcoming national political conventions in both 
Denver and St. Paul.
    The President has determined that certain events, 
gatherings, or occasions are of such importance to the United 
States that the full security and incident management 
capability of the Federal Government should be engaged. These 
events, as you have noted, are declared national special 
security events, or NSSEs for short.
    The Secret Service has been in existence for a long time, 
since 1985. We have been protecting Presidents since 1901, 
protecting major Presidential candidates since 1968, and 
protecting NSSEs since 1998. The Democratic and Republican 
National Conventions in 2000, in Los Angeles and Philadelphia, 
were the first political conventions to receive that status. 
All subsequent RNC and DNC events have been designated NSSE.
    Upon designation of an event, the Secret Service becomes 
the federal agency with lead responsibility for security 
design, planning, and implementation. The FBI becomes the lead 
federal agency with responsibility for intelligence in 
counterterrorism, and FEMA, the Federal Emergency Management 
Agency, becomes the federal agency with lead responsibility for 
coordinating an effective response to possible emergencies.
    With regard to our role, the Secret Service works closely 
with our federal, state, and local law enforcement, and public 
safety partners to develop and implement a comprehensive 
security plan, providing 360 degrees of protection for the 
event and all those in attendance.
    We begin this process by establishing an Executive Steering 
Committee typically comprised of command-level representatives 
from the Secret Service, FBI, and FEMA, as well as law 
enforcement and public safety agencies with local jurisdiction 
where the NSSE is taking place. The Executive Steering 
Committee creates a subcommittee structure that distributes 
responsibility for the development of various elements of the 
operation security plan. Information on this structure can be 
found in my statement for the record.
    Once the NSSE's security plan has been developed, a multi-
agency communications center, known as a MACC, is stood up 
during the hours preceding and throughout the event. The MACC 
is a 24-hour communications hub staffed by representatives from 
all law enforcement and public safety agencies as well as from 
public utilities, public work departments, district attorney 
offices, and any other entity that may impact upon event 
security, to provide timely dispersion of information and 
deployment of assets.
    The MACC also shares connectivity with command posts and 
emergency operations centers of the individual agencies 
throughout the area and nationwide. Our goals are to leverage 
the combined resources, authorities, and expertise that we and 
our partners bring to the NSSE to ensure that sufficient 
protective assets are utilized to eliminate redundancies where 
they are not needed and to be responsible stewards of fiscal 
resources.
    As with the Presidential visit to Denver, St. Paul, or any 
other city, the Secret Service depends upon long-standing 
cooperative relationships that our local field offices have 
forged with their state and local partners. These partners 
contribute their knowledge, their specialized expertise, as 
well as manpower and other resources to the overall mission. 
Over the next year, we look forward to continuing our 
cooperative relationship with our partners in Colorado and 
Minnesota to develop and implement a plan that focuses on 
prevention, but also ensures seamless and appropriate response 
and recovery preparedness.
    To that end, the Secret Service has designated supervisory 
special agents who are here with me today to serve as event 
security coordinators for both the DNC in Denver and the RNC in 
St. Paul. These senior individuals have met with their FBI and 
FEMA counterparts, as well as with local law enforcement 
officials.
    The Director of the Secret Service, Mark Sullivan, and 
members of his staff have met with the Chiefs of Police from 
both Denver and St. Paul regarding the Secret Service's NSSE 
role. Executive steering committees have been established, 
operations subcommittees are being formed, and suitable venues 
for the MACCs are being explored in both cities.
    As the security plans for these two conventions take form, 
joint tabletop and field training exercises will occur. These 
tests--these will serve to test security plans, clarify 
participant roles, and ensure interagency coordination as well 
as exercise command and control protocols.
    Finally, while the Secret Service is indeed the lead 
federal agency with responsibility for the security design, 
planning, and implementation for the DNC and RNC, we view our 
role as that of coordinator and facilitator. I am confident 
that we have the right people, the right agencies, and the 
right methodology to achieve our common goal of safe and secure 
conventions next summer.
    Thank you once again for inviting me to address the 
subcommittee. I welcome any questions you may have for me.
    [The prepared statement of Mr. Koerner follows:]

                Prepared Statement of Timothy J. Koerner

    Good morning Madam Chairwoman, Ranking Member Reichert, and members 
of the subcommittee. Thank you for providing me with the opportunity to 
discuss the U.S. Secret Service's role in protecting the upcoming 
national political conventions in Denver and St. Paul, including the 
critical relationships we share with our federal, state, and local law 
enforcement and public safety partners in Colorado and Minnesota.
    As the Secret Service Assistant Director for Protective Operations, 
I am responsible for the entirety of our protective mission. This 
includes oversight of the Presidential and Vice Presidential protective 
divisions, as well as all of our tactical resources and airspace 
security program located within our Special Operations Division. I also 
oversee the Uniformed Division of the Secret Service, mail screening 
operations, armored vehicle programs and the protection for former 
Presidents and First Ladies. In addition, under the auspices of the 
Dignitary Protective Division, I oversee security matters for visiting 
foreign heads of state, major presidential and vice presidential 
candidates receiving Secret Service protection, and for National 
Special Security Events (NSSE), including national political 
conventions.
    Since I began my Secret Service career in 1983, I have been in 
protection-related assignments during seven presidential campaigns. 
Notably, during the 2000 Democratic National Convention in Los Angeles, 
CA, I was the lead operational security coordinator. Most recently, at 
the direction of the Secretary of Homeland Security, I served as the 
Principal Federal Official for the Presidential Inauguration in 2005, 
which was one of the more recent NSSEs.

               History of U.S. Secret Service Involvement

         with Major Events and National Special Security Events

    In May of 1998, President Clinton issued Presidential Decision 
Directive 62 (PDD-62), which formalized and delineated the roles and 
responsibilities of federal agencies in the development of security 
plans for major events. This document was reaffirmed, in March 2006, 
when President Bush issued Homeland Security Presidential Directive 15 
/ National Security Presidential Directive 46 (HSPD-15/NSPD-46). 
Clarifying responsibilities served to define more clearly the role of 
each agency and eliminated the duplication of efforts and resources.
    The Secret Service's role in developing security plans for major 
events was further solidified when Congress passed into law the 
Presidential Protection Act of 2000, which authorized the Secret 
Service to plan, coordinate and implement security operations at 
designated events of national significance. This authority was a 
natural evolution for the Secret Service, as we have led security 
operations at large events involving the President dating back to our 
first protective mandate in 1901. The Secret Service has a long history 
and expertise at planning and implementing security at major events, 
and a reputation for communicating and coordinating with our local, 
state and federal law enforcement partners in those jurisdictions where 
the major events take place.
    When an event is designated a National Special Security Event by 
the Secretary of Homeland Security, the Secret Service assumes its 
mandated role as the lead agency for the design and implementation of 
the operational security plan. The Secret Service has developed a core 
strategy to carry out its security operations that relies heavily on 
its established partnerships with law enforcement and public safety 
officials at the local, state and federal levels.
    Collectively, the goal of the Secret Service and the cooperating 
agencies is to develop and implement a seamless security plan that 
provides a safe and secure environment for Secret Service protectees, 
other dignitaries, the event participants and the general public. 
Substantial advance planning and coordination is required to prepare 
for these events in connection with a multitude of subjects, such as 
venue and motorcade route security, communications, credentialing and 
training.
    Beginning with the World Energy Council Meeting in Houston, Texas 
in 1998, there have been a total of 24 NSSEs, with the most recent 
being the State of the Union Address on January 23, 2007. Other notable 
NSSEs include the NATO 50th Anniversary Celebration in 1999, the 
International Naval Review in New York City in 2000, the 2002 Winter 
Olympic Games in Salt Lake City, the G-8 Summit in Sea Island, Georgia 
in 2004, the State Funeral for former President Reagan in 2004, and the 
State Funeral for former President Ford earlier this year.

          National Special Security Event Designation Process

    The NSSE designation process typically begins with a written 
request from the governor of the host state to the Secretary of 
Homeland Security. For example, the state of Minnesota began the 
process when Governor Pawlenty sent a letter to Secretary Chertoff on 
January 31, 2007. The state of Colorado began the process when Governor 
Ritter sent a letter to Secretary Chertoff on March 13, 2007. The 
letters were forwarded for review and consideration to the NSSE Working 
Group, which is composed of senior officials of the Secret Service, 
FBI, FEMA, and other federal agencies. When determining NSSE 
designation, some factors that are considered include the size, 
significance, location and duration of the event. In regards to the 
upcoming conventions in Denver and St. Paul, the NSSE Working Group 
reviewed both requests and the overall security environment, and 
recommended that the conventions receive NSSE designation. The 2008 
Republican National Convention and the 2008 Democratic National 
Convention were designated as NSSEs by Secretary Chertoff on March 5, 
2007, and April 23, 2007, respectively.
    Upon designation of an event as an NSSE by the Secretary of 
Homeland Security, the Secret Service becomes the federal agency with 
lead responsibility for operational security design, planning, and 
implementation; the FBI becomes the federal agency with lead 
responsibility for intelligence and counter terrorism; and FEMA 
provides planning support and operational readiness and is the lead 
federal agency for coordinating an effective response to possible 
emergencies. In compliance with the National Response Plan and the 
National Incident Management System, the NSSE designation provides 
event planners with the expertise and resources of the Secret Service 
and other federal agencies, as well as the experience and knowledge 
gained from lessons learned during prior NSSEs.
    Although the Secret Service is the lead federal agency for 
operational security, no funding source is available from which we can 
reimburse state and local governments for security related expenses, 
including overtime and other personnel-related costs.
    It should be noted that the NSSE designation does not alleviate the 
host city's safety and security commitments or other contractual 
obligations to the entity hosting the convention (e.g., Republican 
National Convention Committee, Democratic National Convention 
Committee).
    I would also like to emphasize that an NSSE designation does not 
mean that the Secret Service, or any other federal government agency, 
will usurp the local jurisdiction's day-to-day responsibilities related 
to law enforcement and public safety. The scope of the NSSE is limited 
to the conventions and the security perimeters that will be established 
in and around the convention sites, and to protectees, delegates, and 
other attendees.

                   Planning Process and Coordination

    The actual planning and coordination of these events requires a 
detailed and sustained effort, sometimes requiring months or years.
    The Secret Service's role in developing security for NSSEs enables 
us to work with our colleagues in law enforcement and public safety to 
formulate and execute a comprehensive and coordinated operational 
security plan. As part of our overall approach to security, the Secret 
Service and its partners identify potential threats, determine suitable 
countermeasures to mitigate vulnerabilities, and provide appropriate 
protection for the event and all those in attendance. In addition, the 
Secret Service, in cooperation with other agencies, coordinates the 
utilization of resources and assets.
    Our objectives in NSSE planning include: effectively leveraging the 
combined expertise, authorities, and information that we and our 
partners bring to the NSSE; ensuring that sufficient protective assets 
are utilized; eliminating redundancies where they are not needed; and 
being responsible stewards of financial resources. Similar to our 
planning and implementing of security of a presidential visit to 
Denver, St. Paul, or any other city, the Secret Service depends upon 
the long standing, cooperative relationships that our local field 
offices have forged with law enforcement and public safety partners. 
The local knowledge and specialized expertise, as well as the human and 
other resources these partners contribute, are essential to the overall 
security effort.
    The operational security planning process begins with the 
establishment of an executive steering committee, typically comprised 
of command-level representatives from the Secret Service, FBI, FEMA, 
and the law enforcement and public safety agencies with local 
jurisdiction where the NSSE is taking place. For example, in Denver, 
the Democratic National Convention executive steering committee 
includes representatives from the Denver Police Department, Denver Fire 
Department, FBI, FEMA, Colorado Department of Public Safety, Denver 
Office of Emergency Preparedness, Colorado State Patrol, Denver Health 
Medical Center, United States Attorney's Office, Pepsi Center 
Management, and the Secret Service. Similarly, in St. Paul, the 
Republican National Convention executive steering committee includes 
representatives from the St. Paul Police Department, St. Paul Fire 
Department, FBI, FEMA, Hennepin County Sheriff's Office, Minneapolis 
Police Department, Minnesota Department of Public Safety, Minnesota 
State Patrol, Ramsey County Sheriff's Office, United States Attorney's 
Office, Xcel Center Management, and the Secret Service.
    The executive steering committee establishes a subcommittee 
structure that distributes taskings in connection with the development 
of various elements of the operational security plan among a variety of 
subject matter experts from within the greater law enforcement and 
public safety community. In Denver and St. Paul, many operational 
subcommittees will be utilized. They will deal with specific subject 
areas concerning the event such as: communications, public affairs, 
training, and transportation.
    The subcommittees meet routinely during the weeks and months 
leading up to the event, and report regularly to the executive steering 
committee to discuss and share their progress in developing their piece 
of the overall operational security plan. The executive steering 
committee also serves as the mediator and final arbiter of disputes 
that cannot be resolved within subcommittees. In this way, the 
executive steering committee and the operational subcommittees are the 
framework for the development and implementation of the security plan, 
and serve as the conduit for information sharing among the various 
agencies involved in this process.
    Once the NSSE security plan has been developed, and prior to the 
event, a Multi-Agency Communications Center (MACC) is established. The 
MACC serves as a central 24-hour communications hub throughout the 
event and is staffed by representatives from all participating law 
enforcement and public safety agencies, as well as personnel from 
public utilities, public works departments, district attorney's 
offices, and other organizations that have unique roles in the overall 
security plan. The primary purpose of the MACC is to provide the timely 
dissemination of information to all entities participating in security 
operations, and to serve as the centralized coordination center for 
security-related activities. In addition to being an information 
collection and dissemination center located in close proximity to the 
event site, the MACC also shares connectivity with command posts and 
with emergency operations centers of agencies throughout the area and 
nationwide.
    The MACC shares information and situational awareness with the 
following coordinated components: the Joint Information Center (JIC), 
Intelligence Operations Center (IOC), Airspace Security Operations 
Center (ASOC), Principal Federal Official's Cell (PFO) and the 
Emergency Operations Center (EOC). Typically, the MACC is also 
virtually connected to the following national operations centers: the 
Secret Service Joint Operations Center (JOC), FBI Strategic Information 
Operations Center (SIOC), DHS National Operations Center (NOC)--which 
includes the FEMA National Response Coordination Center (NRCC), and the 
DOD Northern Command (NorthCom), among others.
    At the present time, significant progress has already been made 
toward establishing appropriate security plans for both the Democratic 
and Republican National Conventions. The Secret Service has designated 
supervisory special agents to serve as event security coordinators for 
both the Democratic National Convention in Denver and the Republican 
National Convention in St. Paul. These senior individuals have met with 
their FBI and FEMA counterparts, as well as with local law enforcement 
officials. Director Mark Sullivan and members of his senior staff have 
also engaged in productive discussions with the Chiefs of Police from 
Denver and St. Paul regarding security planning for the Democratic 
National Convention and Republican National Convention. In addition, 
executive steering committees have been established, operational 
subcommittees are being formed, and suitable facilities for Multi-
Agency Communications Centers are being explored in both cities.
    An essential element of the operational security planning process 
is information sharing regarding ``lessons learned'' from previous 
National Special Security Events. Based on our experiences, we are able 
to provide detailed observations and recommendations regarding areas of 
success and areas for improvement that are invaluable to future event 
security planners. We have reviewed these ``best practices'' from prior 
Democratic National Conventions and Republican National Conventions 
with the respective host cities. Additionally, as the operational 
security plans for the two conventions take form, joint tabletop and 
field training exercises will be employed. These exercises will serve 
to test security plans, interagency coordination, and command-and-
control protocols, in addition to lending clarity to participant roles 
during the NSSE.
    We also believe that information sharing extends to the general 
public, particularly regarding security plans that may impact citizens 
concerned about road closures or civil aviation restrictions. Primarily 
through the press and media, but also through other public affairs 
activities, our objective is to provide timely information about how 
security measures will affect individuals so that no one is 
unnecessarily inconvenienced.
    At every stage of our planning and implementation of the 
operational security plan, great attention is paid to respecting the 
public's lawful expression of their First Amendment rights. In the 
absence of a specific fact or observable action that would indicate a 
demonstration may pose a security threat to a Secret Service protected 
person, place or event or to public safety, it is the policy of the 
Secret Service to treat demonstrators as members of the general public 
and not segregate them from the public.
    Although the Secret Service is the federal agency with lead 
responsibility for the NSSE designated national political convention 
operational security matters, we view our role as that of coordinator 
and facilitator. We endeavor to create and implement a comprehensive 
security plan that focuses on prevention, but also ensures seamless and 
appropriate response and recovery preparedness. I am confident that we 
have the right people, the right agencies and the right methodology in 
place to succeed in our effort. We look forward to continuing our 
collaborative relationship with our federal, state, and local law 
enforcement and public safety partners in Colorado and Minnesota to 
ensure our common goal of safe and secure conventions are achieved next 
summer.

Madam Chairwoman, this concludes my prepared statement. Thank you again 
   for the opportunity to appear before the subcommittee. I will be 
    pleased to answer any questions you or the other members of the 
                         subcommittee may have.

    Ms. Harman. Thank you very much.
    We will now welcome the testimony from Chief Battista.

 STATEMENT OF MICHAEL H. BATTISTA, DEPUTY CHIEF, DENVER POLICE 
                           DEPARTMENT

    Mr. Battista. Thank you. Chairwoman Harman, Ranking Member 
Reichert, and Congressman Perlmutter, thank you for this 
opportunity to discuss with you this important topic of 
information sharing in national special security events with a 
focus on the upcoming Democratic National Convention.
    While the Denver metro area is still working towards 
optimizing the collection and sharing of information, I believe 
that there is a spirit of collaboration at all three levels of 
government, which is leading us in the right direction. Near 
the end of 2006, a law enforcement assistance and partnership 
strategy, LEAP, was sponsored by Congressman Benny Thomas. The 
topic of the report was improving information sharing between 
the intelligence community and state, local, and tribal law 
enforcement.
    The report focused primarily on input from state and local 
enforcement. In that report, there were seven recommendations. 
I agree for the most part with these recommendations and would 
like to focus on two that I believe would be beneficial to the 
Denver metro area.
    The first point on which I would like to expect is that of 
actionable intelligence. When intelligence information is 
distributed from the federal level, the question is often 
asked: what does this mean for my city? The more information 
that is made available regarding what the threat actually is 
the better local law enforcement can act upon that 
intelligence.
    Recently, the Department of Homeland Security has begun 
issuing special assessment bulletins. These bulletins provide 
greater specificity of information that allows local law 
enforcement the ability to take preventative steps in 
addressing the topic of the bulletin. Expanding on this type of 
actionable intelligence will be a direct benefit to local law 
enforcement.
    The second item I would like to touch upon is that of state 
fusion centers. Colorado's version of the fusion center is a 
Colorado Information and Analysis Center, CIAC. I believe 
another panel member is going to go into more detail about the 
CIAC, but I would like to say that this is a very viable 
concept, and that the spirit of cooperation around enhancing 
the capabilities of the state CIAC is running high.
    I see the Federal Government is having an opportunity to 
support local, state, and federal intelligence sharing by 
developing a funding source for FTEs to staff state fusion 
centers. The LEAP report provides a backdrop for my comments on 
how I see the sharing of intelligence during the Democratic 
National Convention. An intelligence operations center will be 
established with participants from a multitude of state, local, 
and federal agencies.
    As the information is collected from various agencies, it 
can be shared in real time with all of the other represented 
entities. Once the information has been analyzed, it may then 
be forwarded to the multi-agency communications center where 
the decision is made as to what the appropriate response to the 
information will be.
    By utilizing the intelligence operations center and the 
multi-agency communications center during the Democratic 
National Convention, this will act as somewhat of a super 
fusion center. This will be the largest number of agencies ever 
assembled at one time in Colorado, all agencies sharing 
information real-time and face to face.
    Analysis of the information will be conducted to make it 
actionable intelligence and then forwarded for the appropriate 
response. An after-action report may be completed at the 
conclusion of the DNC to facilitate discussion on improvements 
for future NSSEs. The after-action report may then be utilized 
in the development of benchmark surveys.
    The operational structure addresses four of the seven 
conclusions stated in the LEAP report, participating in the 
intelligence cycle at the local, state, and federal level, 
state fusion centers, actionable intelligence, and conducting a 
benchmark survey.
    With Denver hosting the Democratic National Convention, it 
gives its state, along with its federal and local law 
enforcement partners, an exceptional opportunity. Many of the 
operational challenges in standing up a fusion center will be 
overcome during the DNC. The framework left behind by the 
creation of the super fusion center should be built upon with 
the financial support of the Federal Government through funding 
for FTEs. I believe that this can be accomplished and would, in 
turn, leave an intelligence sharing legacy.
    Thank you.
    [The prepared statement of Mr. Battista follows:]

               Prepared Statement of Michael H. Battista

Introduction
    Chairwoman Harman, Ranking Member Reichert and Congressman 
Perlmutter, thank you for this opportunity to discuss with you this 
important topic of Information Sharing and National Special Security 
Events with a focus on the upcoming Democratic National Convention 
which Denver will host August 25th through the 28th of 2008.
    There are many positive programs in various stages of development 
in the Denver metro area, at the State level and also the Federal 
level. While the Denver Metro area is still working towards optimizing 
the collection and sharing of information, I believe that there is a 
spirit of collaboration at all three levels of government which is 
leading us in the right direction.

LEAP Report
    Near the end of 2006, a Law Enforcement Assistance and Partnership 
Strategy (LEAP) was sponsored by Congressman Bennie Thompson. The topic 
of the report was Improving Information Sharing between the 
Intelligence Community and State, Local, and Tribal Law Enforcement. 
The report focused primarily on input from State and local law 
enforcement. In that report there were seven recommendations:
        1. Participating in an Intelligence cycle at the Federal and 
        Non-Federal level.
        2. Local law enforcement sending liaisons overseas to gather 
        intelligence first hand.
        3. Border fusion centers.
        4. State fusion centers.
        5. Actionable intelligence.
        6. A system that facilitates faster Secret and Top Secret 
        clearances for State and local law enforcement.
        7. Conducting a benchmark survey.
    I agree, for the most part, with these recommendations and would 
like to focus on three that I believe would have the largest positive 
impact on the Denver metro area. The first I'd like to address in the 
alternative that being the concept of local law enforcement sending 
liaisons out of the country to gather intelligence first hand. I 
believe there are only a hand full of local jurisdictions that have the 
capability to do this and that this recommendation arose out of 
frustration from not obtaining timely information from Federal 
agencies. To me, the collection of intelligence from overseas is the 
role of the Federal government and solutions within the current system 
should be explored in lieu developing a liaison program. The Denver 
Police Department works very well with its local Federal partners and 
is a participant in the Joint Terrorism Task Force (JTTF). Where I 
believe there is room for improvement is in the timeliness of sharing 
information between the home offices of the Federal agencies and the 
local JTTF. Information that has not been fully vetted but is 
distributed to local jurisdictions in a timely manner is often times 
more valuable than fully vetted information given out days after an 
incident.
    The second point on which I would like to expand is that of 
Actionable Intelligence. When intelligence information is distributed 
at the Federal level the question is often asked, ``What does this mean 
for my city?'' The more that information is made available regarding 
what the threat actually is, the better local law enforcement can act 
upon the intelligence. Recently the Department of Homeland Security has 
begun issuing Special Assessment Bulletins. These bulletins provide 
greater specificity of information that allows local law enforcement 
the ability to take preventative steps in addressing the topic of the 
bulletin. Expanding on this type of actionable intelligence will be a 
direct benefit to local law enforcement.
    The third item I would like to touch upon is that of State Fusion 
Centers. Colorado's version of the fusion center is the Colorado 
Information and Analysis Center (CIAC). I believe another panel member 
is going to go into more detail about the CIAC but I would like to say, 
that I believe this is a very viable concept and that the spirit of 
cooperation around enhancing the capabilities of the State's CIAC is 
running high. I see the Federal government as having an opportunity to 
support local, state, and federal intelligence sharing by developing a 
funding source for FTEs to staff state fusion centers.

Democratic National Convention
    The LEAP report provides a back drop for my comments on how I see 
the sharing of intelligence during the Democratic National Convention 
will be conducted. I am basing my statements on discussions I have had 
with numerous Federal partners that have participated in past NSSEs.
    The Federal Bureau of Investigation will be the lead agency in 
coordinating the collection of information for the Democratic National 
Convention. An Intelligence Operations Center will be established with 
participants from a multitude of State, Local, and Federal agencies. 
These agencies may include, but are not limited to, all local and State 
law enforcement agencies which will be participating in the security of 
the DNC, to include the Colorado National Guard. Some of the Federal 
agencies participating will be the United States Secret Service, 
Department of Homeland Security, Federal Air Marshals, FEMA, TSA and 
the Department of Energy.
    As the information is collected from the various agencies it can be 
shared in real time with all of the other represented entities. Once 
the information has been analyzed it may then be forwarded to the 
Multi-agency Communication Center (MACC) where the decision is made as 
to what the appropriate response to the information will be.

Conclusion
    By utilizing the Intelligence Operations Center and the Multi-
agency Communication Center during the Democratic National Convention 
this will act as somewhat of a super fusion center. This will be the 
largest number of agencies ever assembled at one time in Colorado, all 
agencies sharing information real time face to face. Analysis of the 
information will be conducted to make it actionable intelligence and 
then forwarded for the appropriate response. An after-action report may 
be completed at the conclusion of the DNC to facilitate discussion on 
improvements for future NSSEs. This after action report may then be 
utilized in the development of benchmark surveys.
    This operational structure addresses four of the seven conclusions 
stated in the LEAP report: (1) Participating in the intelligence cycle 
at the local, state and federal level (2) State Fusion Centers (3) 
Actionable Intelligence and (4) Conducting a benchmark survey.
    With Colorado hosting the Democratic National Convention it gives 
the State along with its federal and local law enforcement partners an 
exceptional opportunity. Many of the operational challenges in standing 
up a fusion center will be over come during the DNC. The framework left 
behind by the creation of the super fusion center should be built upon, 
with the financial support of the Federal government through funding 
for FTEs. I believe this can be accomplished and would in turn leave an 
intelligence sharing legacy.
    Thank you for your time, I truly appreciate you taking an interest 
in this important topic.

                              Supplemental

                          Summary of Comments

                          Michael H. Battista

    By utilizing the Intelligence Operations Center and the Multi-
agency Communication Center during the Democratic National Convention 
this will act as somewhat of a super fusion center. This will be the 
largest number of agencies ever assembled at one time in Colorado, all 
agencies sharing information real time face to face. Analysis of the 
information will be conducted to make it actionable intelligence and 
then forwarded for the appropriate response. An after-action report may 
be completed at the conclusion of the DNC to facilitate discussion on 
improvements for future NSSEs. This after action report will facilitate 
conducting benchmark surveys.
    This operational structure addresses four of the seven conclusions 
stated in the LEAP report: (1) Participating in the intelligence cycle 
at the local, state and federal level (2) State Fusion Centers (3) 
Actionable Intelligence and (4) Conducting a benchmark survey.
    With Colorado hosting the Democratic National Convention it gives 
the State along with its federal and local law enforcement partners an 
exceptional opportunity. May of the operational challenges in standing 
up a fusion center will be over come during the DNC. The framework left 
behind by the creation of the super fusion center should be built upon, 
with the financial support of the Federal government through funding 
for FTEs. I believe this can be accomplished and would in turn leave an 
intelligence sharing legacy.

    Ms. Harman. Thank you very much.
    I would just like our audience and our witnesses to know 
that our Subcommittee, the members and our staff that are here, 
are going to visit the CIAC immediately after this hearing. We 
are very interested in seeing what you have here, comparing it 
to what we have seen in both Seattle and Los Angeles, and also 
in Baltimore, Maryland. We were there as well. So thank you for 
that testimony.
    We will now hear from Mr. DeMello.

    STATEMENT OF JUSTIN DEMELLO, DIRECTOR, DENVER OFFICE OF 
                      EMERGENCY MANAGEMENT

    Mr. DeMello. Good morning, Committee members. I would like 
to thank all of you for inviting me here today to testify on 
this very important topic as our country looks for better ways 
to prepare ourselves from acts of terror and Mother Nature. I 
believe this is a great opportunity to identify and acknowledge 
our successes as well as the areas that potentially need 
improvement.
    During my career as a first responder in Los Angeles and a 
federal coordinating officer and lead federal official, I have 
responded to many devastating events that have occurred in this 
country. My goal is to do whatever I can to be sure that we are 
prepared to respond and recover from such events.
    The law enforcement community at the federal, state, and 
local levels has done a great job in identifying potential 
threats and preventing those threats from becoming reality. I 
also believe that many of our citizens in this country have 
contributed to the success of preventing attacks due to their 
vigilance and desire to protect this country from acts of 
terror.
    I am hopeful, with the help of this Committee, that we can 
verify that the information related to acts of terror is 
consistent across all levels of government and not diluted to a 
need-to-know basis. In addition, I am hopeful that this 
Committee can help widen the definition of ``need to know'' to 
include those that would respond to an event if prevention 
should not be successful.
    It is critical that when the intelligence community gets 
information of a potential or pending event, the information is 
shared with fire, EMS, and emergency management in order to 
fine tune our all-hazard planning to that immediate threat. 
This country and homeland security cannot place all of its 
efforts in prevention without a corresponding response 
appropriate to that threat.
    This Committee, with Department of Homeland Security, 
Department of Justice, and others, can be influential in the 
identification and support of information sharing projects 
utilizing various grant streams. A good example would be Cop 
Link, a project proposal that would increase the information 
sharing amongst communities.
    This Committee, as it relates to critical infrastructure 
protection, can be influential in ensuring a well-rounded 
approach in the identification and protection of our country's 
most important assets.
    Paramount to being successful in this area, we as a country 
need to be consistent in the identification of these assets. A 
major factor in critical infrastructure protection is the 
national infrastructure protection plan and sector-specific 
plans which are valuable tools to better protect these assets. 
It is critical that any planning related to critical 
infrastructure is developed by the private sector with the 
Federal Government as the facilitator.
    Ownership clearly has to fall on the private sector 
community, since they own the vast majority of assets in this 
area. The best way to protect this critical infrastructure for 
generations post-9/11 era is through building codes and 
ordinances at the local level. The difficult discussion still 
resides in using taxpayer dollars for--to harden for-profit 
private facilities.
    Lastly, information gathered related to critical 
infrastructure needs to be--lastly, the information gathered 
regarding critical infrastructure needs to be shared amongst a 
select group of first responders so as to better prepare their 
response. Current practice is to keep this information so 
secretive that even the first responders and emergency managers 
are unaware of the critical infrastructure that resides in 
their community.
    Another tool to assist in critical infrastructure 
protection is the creation of a new emergency support function 
that incorporates the 17 sectors. In Denver, we are doing just 
that. We have begun the planning phases for that. It has been 
my experience that at critical times early in an event we only 
react to issues related to the sectors. Our plan is to have 
them engaged from the onset to identify issues before they 
become a reality.
    This new ESF would be embedded in our city operation plan 
and should be embedded in a national response plan, and soon to 
be the national response framework. It would be helpful if this 
Committee could assist Department of Homeland Security in 
assessing the ramifications of any large event, whether it be 
acts of terror or natural hazards, in order to better 
prioritize use of funds as we better prepare this country.
    As we have seen recently in events such as Hurricane 
Katrina, a mass evacuation of an area, regardless of its cause, 
becomes one of the bigger issues facing a community during a 
disaster. Since the inception of Homeland Security, the focus 
has been--and rightfully so--making sure the first responders 
have the equipment to be successful. Now, six years after 
September 11, we continue to focus primarily on the first 
responders and not focus on other areas that need support such 
as mass care and medical surge.
    We are--while there are limitations in supporting the 
private sector with taxpayer grant funds, we, as a government 
know, especially in a crisis, that the private sector is our 
partner in our response. With that said, hopefully the 
Committee can work with the Department of Homeland Security to 
focus on all issues related to a large event which would 
include mass care and medical surge, to ensure the response is 
appropriate across the board in handling the obvious, as well 
as the collateral issues that always occur during these events.
    Regardless of how well the first responders do in their 
portion of the event, any negative peripheral issues become the 
legacy of that event.
    Lastly, the ultimate goal of Homeland Security is to 
increase capability. At some point, the Department of Homeland 
Security should look into utilizing grant funds to support 
personnel costs beyond what is currently allowed. Currently, 
the focus is on obtaining equipment, but we need to focus on 
the need for additional personnel to truly increase capability.
    By using grant funds to increase personnel, DHS would 
provide a substantial increase in capability in the near term 
with local and state governments assuming the financial 
responsibility in the long term.
    Again, I would like to thank all of the members for this 
opportunity to speak and would entertain all questions. Thank 
you.
    [The prepared statement of Mr. DeMello follows:]

                  Prepared Statement of Justin DeMello

    Good morning Committee members, I would like to thank all of you 
for inviting me here today to testify on this very important topic as 
our country looks for ways to better prepare ourselves in the 
prevention, response, and recovery from acts of terror or from Mother 
Nature. I believe this is a great opportunity to identify and 
acknowledge our successes as well as identify areas that potentially 
need improvement.
    During my career as a first responder in Los Angeles and as a 
Federal Coordinating Officer and lead federal official on disasters, 
I've responded to many devastating events that have occurred in this 
country. My goal is to do whatever I can to help prevent, respond to, 
and recover from such events in order to minimize the impact on our 
citizens.
    The law enforcement community, at the federal, state and local 
levels, has done a great job in identifying potential threats and 
preventing those threats from becoming reality. I also believe that 
many of our citizens in this country have contributed to the success of 
preventing attacks due to their vigilance and desire to protect this 
country from acts of terror. I am hopeful, with the help of this 
Committee, that we can verify that the information related to acts of 
terror is consistent across all levels of government and not diluted to 
a ``need to know'' basis.
    In addition, I am hopeful that this Committee can help in widening 
the definition of ``need to know'' to include those that would respond 
to an event if prevention was not successful. It is critical that when 
the intelligence community gets information of a potential or pending 
event, that information is shared with fire, EMS and emergency 
management in order to fine tune our all-hazard planning to that 
immediate threat. This country and homeland security cannot place all 
of its efforts in prevention without a corresponding response 
appropriate to that threat.
    This Committee, working with the Department of Homeland Security, 
Department of Justice, and other departments can be influential in the 
identification and support of information sharing projects utilizing 
various grant streams. A good example would be Cop Link, a project 
proposal that would increase the information sharing among communities.
    This Committee, as it relates to critical infrastructure 
protection, can be influential in ensuring a well-rounded approach in 
the identification and protection of our country's most important 
assets. Paramount to being successful in this area, we as a country 
need to be consistent in the identification of these assets. As a major 
factor in critical infrastructure protection, the National 
Infrastructure Protection Plan and Sector Specific Plans are valuable 
tools to better protect these assets. It is critical that any planning 
related to critical infrastructure is developed by the private sector 
with the federal government as the facilitator. Ownership clearly has 
to fall on the private sector community since they own the vast 
majority of assets in this area. The best way to protect this critical 
infrastructure for generations in this post 911 era is through building 
codes and ordinances at the local level. The difficult discussion still 
resides in using tax payer dollars to harden private, for-profit 
facilities. Lastly, information gathered related to critical 
infrastructure needs to be shared with a select group of first 
responders so as to better prepare their response. Current practice is 
to keep this information so secretive that even the first responders 
and emergency managers are unaware of the critical infrastructure 
assets in their community.
    Another tool to assist in critical infrastructure protection is the 
creation of a new Emergency Support Function that incorporates the 17 
sectors. In Denver, we are in the beginning phase of doing just that. 
It has been my experience that at critical times early in an event, we 
can only react to issues as they arise within any sector. Our plan is 
to have them engaged from the onset to identify issues before they 
become reality. This new ESF will be embedded in our City Emergency 
Operations Plan and it should be a part of the National Response Plan, 
soon to be the National Response Framework.
    It would be helpful if this Committee could assist the Department 
of Homeland Security in assessing the ramifications of any large event 
(be it acts of terror or natural hazards) in order to better prioritize 
use of funds as we better prepare this country. As we've seen recently 
in events such as Hurricane Katrina, the mass evacuation of an area, 
regardless of its cause, becomes one of the bigger issues facing a 
community during a disaster. Since the inception of the Department of 
Homeland Security the focus has been (rightfully so) making sure the 
first responders have the equipment to be successful. Now six years 
after September 11th we continue to focus primarily on the first 
responders and not focus on the other areas that need support such as 
mass care and medical surge capabilities. While there are current 
limitations with supporting the private sector with taxpayer grant 
funds, we as government know, especially in a crisis, that the private 
sector is a partner in our response. With that said, hopefully the 
Committee can work with the Department of Homeland Security to focus on 
all the issues related to a large event which include mass care and 
medical surge to ensure the response is appropriate across the board in 
handling the obvious and the collateral issues that always occur during 
large events. Regardless of how well the first responders do in their 
portion of the event, any negative peripheral issues become the legacy 
of the event.
    Lastly, the ultimate goal of the Department of Homeland Security is 
to increase capability. At some point, the Department of Homeland 
Security should look into utilizing grant funds to support personnel 
costs beyond what is currently allowed. Currently the focus is on 
obtaining equipment but we also need to focus on the need for 
additional personnel to truly increase capability. By using grant funds 
to increase personnel, DHS would provide a substantial increase in 
capability in the near term with local and state government assuming 
the financial responsibility for the long term.
    Again, I would like to thank all members for the opportunity to 
speak today and I would be happy to answer any questions you have.

    Ms. Harman. Thank you very much, Mr. DeMello, and thank you 
for mentioning the private sector, which is a huge part of both 
the opportunity and the target in this area, and obviously in 
Minneapolis/St. Paul as well.
    All of your testimony was excellent. We will now each ask 
you five minutes of questions, and I will begin with myself for 
five minutes.
    Let me talk about budgets. Mr. DeMello, I heard you say 
that you would like DHS to make more funds available to augment 
the personnel. And I also heard your comment about mass care 
and medical surge being part of the response, a necessary part 
of the response capability, and I agree.
    I would like to ask the Secret Service and Denver witnesses 
about their budgets. Do you have an adequate budget to provide 
for what you need? And please address in the response, Chief 
Battista, your effort to get neighboring police departments to 
also provide some personnel.
    Mr. Battista. So my understanding of the budget process is 
that with it being declared an NSSE, that then a separate bill 
goes through appropriations to bring federal dollars for this 
event outside of Homeland Security money. And I was told that 
it should not impact the different federal grants we are 
already getting. This would be new money.
    And my understanding, it has been attached to one bill that 
did not get through, and now it is still in the process of 
going through Congress to get that approval level. When that 
money comes through, then I do believe that that money will be 
sufficient to secure the Democratic National Convention. And a 
big portion of that funding will go to working with outside law 
enforcement jurisdictions and backfilling the positions of 
police officers. When they send me a police officer, then I can 
give them money, so they can pay an officer to work overtime to 
keep their city staffed.
    So we have sent a letter out to--the Denver Police 
Department has sent a letter out to all of the metro law 
enforcement agencies within a commuting distance asking them 
what they believe their resources will be available to the city 
for the Democratic National Convention. And we are currently 
getting those responses back.
    Ms. Harman. Thank you. Mr. Koerner, what about your budget?
    Mr. Koerner. You know, like anybody's household budget, we 
could always use more. I think everybody would say that. But we 
understand that, you know, in these times of really fiscal 
prudence for the Federal Government we have to make priorities, 
and we have to prioritize those things that are most important 
that we need to spend our funds on and our manhours on.
    And the fact is this is a priority for us. The mere fact 
that this is--and I don't mean to say ``mere,'' because the 
fact that these events are designated as national special 
security events put them at the top of my priority list, 
insofar as ensuring that we do not fail. And so whatever 
tradeoffs we need to make with regard to other elements of the 
Secret Service budget, the Director is prepared to do that, so 
that we ensure that we bring sufficient resources to bear, both 
here and in St. Paul.
    It is I think worthy of note that the NSSE designation is a 
designation with regard to framework and responsibility, but it 
is not a designation that brings with it automatically any 
additional funds for the partners or the localities in which 
they host these events.
    Ms. Harman. Well, all of us will be looking out for you, 
and I do take the point about mass care and medical surge, and 
hope that we can be helpful.
    Let me turn to another subject. Chief Battista, you were 
talking about actionable information. I think everyone 
understands what that means. It means information that will 
help you know what to look for and what to do. Law enforcement 
needs it, so does the public. Would you agree with that?
    Mr. Battista. I am sorry. So does who?
    Ms. Harman. The public.
    Mr. Battista. The public, yes, ma'am.
    Ms. Harman. Yes. Well, here is the point I want to make, 
and I want to ask you all to comment briefly. Actionable 
information is not just top down, it is not just the Federal 
Government telling you that a facility in Denver might be under 
attack by some terror group during the convention.
    It is also bottom up. It is you figuring out what 
facilities or what places might be at risk, what people might 
look a little strange, and might be trying to do something 
disruptive, and going up the chain and telling the Federal 
Government and the federal intelligence agencies that you have 
information. Is that not correct?
    Mr. Battista. Correct. And there is multi-layers of that, 
so at the officer level and the patrol car we put out 
intelligence briefing bulletins frequently on telling officers 
what to look for, take an extra step if something does not seem 
right. One of the common things is multiple identifications, 
and not just looking at it, that that is part of a normal call 
to follow up, get the intel bureau involved.
    So at the basic level, that is what I am stressing in the 
Denver Police Department. Then, as it moves up, it will go to 
the JTTF, and then it will be shared with--
    Ms. Harman. That is the Joint Terrorism Task Force, which 
is an FBI--
    Mr. Battista. Yes.
    Ms. Harman. --organized fusion center.
    Mr. Battista. And so then it goes to the Joint Terrorism 
Task Force where the information is shared and then can be run 
through the federal systems. So I think we are working pretty 
well in that arena.
    Ms. Harman. Well, my time has expired. But an important 
point for people to take away from this hearing is that 
probably the better eyes and ears in Denver are local eyes and 
ears, both from our first preventer community and also from the 
public at large, and no doubt the public will be given lots of 
information in advance about what to look for and what to do. 
And we are counting on you to keep Denver safe, as well as 
trying to do the best job the Federal Government can to provide 
the funding and the organization to do that.
    I would now yield five and a half minutes, since I went 
over my own time, to Sheriff Reichert for questions.
    Mr. Reichert. I am not sure I will need five and a half 
minutes, but thank you, Madam Chair.
    One of the issues that I dealt with as the Sheriff, after--
well, my entire tenure was my budget. And being a participant 
of federal task force efforts, and asking and being asked time 
after time to have an officer assigned to the Violent Crimes 
Task Force, to HIDA, to, you know, you name it, the Fugitive 
Task Force, and just--
    Ms. Harman. Explain HIDA.
    Mr. Reichert. HIDA is the High-Intensity Drug Trafficking 
Task Force, for those of you in here who may not be familiar 
with it, and it is actually directed through DEA. But it is a 
partnership of most of the local law enforcement agencies and 
federal agencies in major metropolitan areas across the 
country.
    So we--you know, we dealt with trying to have people 
assigned there, so the FTE issue--the assignment of personnel 
and the costs of personnel--is one that when I came to Congress 
about two and a half years ago now was my--one of my initial 
efforts in trying to obtain some funding for analysts, intel 
analysts.
    And that language was included I think in the 9/11 bill, 
and you are--should be looking at that language, because it 
does allow you to hire FTE personnel specifically as intel 
analysts. Hopefully, we can work on some other funding later on 
down the road, but that is, as you know, a difficult task in 
today's world. But I feel your pain when you have your people 
spread around.
    NYPD testified at one of our hearings that they spend $178 
million on homeland security a year, over 350, 400 personnel 
assigned, and my question was: did your City Council reimburse 
you or, you know, give you $178 million, increase your budget 
by $178 million? And, of course, we know the answer to that 
question. No. But there were some federal grants that helped 
balance that out just a little bit.
    I wanted to ask Mr. Koerner, on the MACC command post, how 
does that interact with the efforts of the fusion center and 
the joint analytical centers and the JTTFs? As MACC sets up, 
are they co-located with a fusion center or--
    Mr. Koerner. Generally, the answer to that is no, because 
of the fact that the MACC requires a lot of space that just 
isn't next to or abutting the fusion centers in these various 
locales.
    Now, the Secret Service has set up security and forged 
these partnerships at 23 NSSEs over the years, and we have 
gotten better every time. You know, we do share, as the Chief 
was saying, share the best practices of lessons learned that we 
have found. But I think that it is important to note, I went to 
the CIAC yesterday and had a chance to see what you all will 
see today, and it is very impressive and it is a great 
framework.
    And the Secret Service, in developing this plan with our 
partners, isn't going to seek to reinvent the wheel here. We 
are going to seek to enhance those processes that are already 
in place. So the CIAC will be connected completely with the 
MACC, so that situational awareness is shared across the board. 
And that part is absolutely clear; it must be shared by all of 
the relevant entities.
    Mr. Reichert. Great. Good. And, Mr. DeMello, you mentioned 
Cop Link. Cop Link--
    Mr. DeMello. Yes, sir.
    Mr. Reichert. --was a system that a couple of the police 
departments in King County--there are 38 police departments in 
King County. A couple of them, you know, went out, got Cop 
Link, and then there were other police departments that said 
no--you have probably heard this--that isn't going to work for 
us, and they got a different system. And then, of course, back 
then they weren't able to interconnect.
    So is Cop Link something in this area that has been really 
embraced and is a part of the effort, then, as we look forward 
to the convention, is it really going to play a central role in 
sharing information? Has everyone bought off on Cop Link as the 
way to go?
    Mr. DeMello. I can speak to part of it, and then I will let 
Chief Battista speak to the other. I think from the information 
that we are gathering around the Denver metro area is that 
initially I think they had the same issues that they had in 
King County with the various agencies. I think the Denver metro 
area, or wider, has come to grips with knowing that they have 
to have a single system that they can share.
    So the movement afoot right now is to get that funded, and 
the reason why I mentioned that in my opening statement, it is 
in the current process through DOJ funds. So as we look at 
these various committees and various departments, committees 
within each department, we can somehow consolidate those 
efforts to make sure that it is good for both ends. It is good 
for both the homeland security side and it fixes some of the 
issues related to that as well as it helps the DOJ side of the 
house.
    So I think it is two-fold. The grant currently resides in 
DOJ, but it is a real huge homeland security issue that we need 
to get funded from the front end. So, Chief--
    Mr. Battista. And from the police department's perspective, 
there is a lot of movement towards that. We have three of the 
largest counties in the Denver metro area committing to Cop 
Link, and we have--Aurora and Denver are moving that direction. 
It is an expensive system, and that has been one of the things 
that has been holding us up.
    Mr. Reichert. Great. Thank you.
    I yield.
    Ms. Harman. Thank you. The chair now yields to Aurora's 
own, Mr. Perlmutter, for five and a half minutes.
    Mr. Perlmutter. Thank you, Madam Chair.
    Mr. Koerner, having done--the Secret Service having sort of 
led 23 of these NSSE events, can you give us sort of a 
hypothetical of how there is some sort of threat out there, how 
that information is shared down to the local policemen.
    And then, let us take the other thing. All of a sudden 
something bubbles up, there is a protest, and how does 
everybody get wind of that and respond?
    Mr. Koerner. Well, I would first say--
    Mr. Perlmutter. Without sharing any state secrets, 
obviously.
    Mr. Koerner. Sure. Absolutely. I would first say that all 
protests certainly are not unlawful.
    Mr. Perlmutter. Right.
    Mr. Koerner. And so the mere presence of a protest or 
someone saying something that is contrary to the will of that 
party to the Secret Service doesn't mean that there is a threat 
out there. Certainly, the local entities have various 
ordinances and rules with regard to permitting to get 
demonstration permits to use public lands or areas to get 
gathers and marches and the like. So that is first.
    But I would say that the entire framework that we have 
built up is such that there is reach-back capability, that all 
of the agencies that come to bear enter into this arena that we 
are going to be--that we are just stepping into now for the 
next year to ensure that that information flow is complete and 
throughout, top to bottom and bottom to top, as the Chairwoman 
said.
    So if by chance it was something that developed from an 
intelligence agency, then that information may very well be 
classified, and there would be--we would have those 
capabilities to deal with classified material, and then be able 
to disseminate that material in a suitable manner to all of the 
law enforcement and public safety entities that needed to know, 
as well as the general public if it was something that was 
appropriate to be released to the general public.
    But on the other side, you might have something that comes 
up from a citizen who says, ``Hey, I was walking my dog, and I 
witnessed this,'' and this event didn't seem to be normal for 
this area. That would be investigated through the normal 
processes by the police department, and then as that 
investigation proceeded and it--you know, your senses as to 
whether or not this was something that was just out of the 
ordinary or truly was an indication of some pre-attack planning 
or something that was going on, that would be shared by all.
    So there is an investigative component to this process, 
there is an intelligence component to the process, as well as 
an operational component to this process. But I assure the 
three of you and the people of Denver and St. Paul that this 
will be wrapped up tight.
    Mr. Perlmutter. Okay. Thank you. And you did--I think you 
mentioned that over the course of this next year there will be 
joint training--
    Mr. Koerner.? Absolutely.
    Mr. Perlmutter. --exercises, and so that each of these 
departments, whether it is the Denver Police and its sort of 
lead mission or the Secret Service and its lead mission, 
working with the Aurora Police, working with the emergency 
management side--I know West Metro, which is the big fire and 
rescue department over on the west side of town has some major 
role in response in emergency response in this community.
    So I just want to make sure that in the process of all this 
you guys are all talking. That is a purpose of today's hearing 
and the purpose I know of your coordination efforts.
    Mr. Koerner. Yes, sir. I would just assure you that that is 
the case, and I think that the one point that you just brought 
up is really appropriate, and that is that the Secret Service 
is the federal agency who has got the lead with responsibility 
to this NSSE. Certainly, the Denver Police Department sitting 
here to my left, they have the lead and they have 
responsibilities, and they are truly equal partners with the 
Secret Service in the development of this operational security 
plan.
    Mr. Perlmutter. All right. At the end of the day, and I 
will see how you guys answer this, where does the buck stop to 
really make a critical decision of some sort of another?
    Mr. Koerner. Yes, there is--I will say this. That we have 
gone down that role lots of times, because there have been in 
previous NSSEs differences of opinion as to--and maybe muddied 
waters. Well, we have cleared up those waters quite a bit, and 
those roles and responsibilities come to bear. But if it is an 
event that gets inside the perimeter, if you will, of the NSSE, 
which is the convention, you know, the Secret Service is going 
to be discussing that with our partners.
    If it is on the outside, the partners are going to be 
discussing it with us. But this Executive Steering Committee, 
and all of the entities that are on it--and, of course, 
Sheriff, you know this very well from the WTO. I was there in 
Seattle in 1999, and we learned a lot of lessons from that. But 
decisions will be made, they will be made expeditiously, and 
they will be made by the agency who has got the best 
situational resources and authorities to deal with that.
    Mr. Perlmutter. Okay. Thank you, Madam Chair. There is not 
much time left, so I will just--I don't want to start down 
another whole line of questions.
    Ms. Harman. Well, let me just ask you, because I just asked 
Dave Reichert, if you have one additional question, feel free 
to do that, because we are going to move to the second panel 
after this.
    Mr. Perlmutter. I have a whole bunch. Let me ask you--let 
me ask this. With the exception of Mr. DeMello who is on the 
response side, the disaster response, how do you gentlemen--
and, Chief, I will ask you this, as well as you, Mr. Koerner--
how are you going to deal--you come from a protection point of 
view. How are you going to deal with this other part we talked 
about, which is freedom of speech, freedom of assembly?
    You know, when your framework is to stop bad things from 
happening, how are you going to allow for this free expression 
and prepare for that early on, because we have heard there are 
going to be a number of groups that want to come and, you know, 
let us know what their views are.
    Mr. Battista. Right. And so Denver--we are not new to 
having protestors in Denver. It is pretty much a weekly event 
downtown. We have the state capital there, and we are very 
familiar with dealing with the groups. And pretty much our 
protocol is we reach out to them prior to the event, sit down 
with them, see what they want to accomplish by their protest, 
and then work with them to ensure their First Amendment rights 
within the parameter of making sure that no one else's rights 
are being violated.
    So we have in the past--we have already had two meetings 
with one of the main protest groups coming for the event, and 
we have regular meetings scheduled up until the event. And we 
are telling them we are probably not going to agree on every 
issue, on what they should be able to do, and what they can't 
be able to do. But we are at the table talking with them, and 
so we are looking to work through those issues.
    Mr. Perlmutter. Thank you.
    Thank you, Madam Chair.
    Ms. Harman. Mr. Reichert.
    Mr. Reichert. Just one quick followup question. Mr. 
DeMello, you mentioned national infrastructure and the critical 
infrastructure, and I am just wondering, too, if--are you--
anyone on the panel familiar with CEPTED?
    Mr. DeMello. No.
    Mr. Reichert. Prevention of crime through environmental--
    Mr. Battista. Yes.
    Mr. Reichert. So is that being--is that part of--I mean, it 
should be a part of this critical infrastructure, I would 
think.
    Mr.Battista. Well, for the NSSE, that is going to be a huge 
part of it. But for the critical infrastructure, we are working 
more with the private entities and there is varying degrees of 
cooperation on working with the private entities on taking our 
input as far as CEPTED goes. So we can make recommendations, 
but then it comes down to a business decision on what they 
implement from our recommendations.
    Mr. Reichert. The Chairwoman asked me to explain what 
CEPTED--do you want to go ahead and explain CEPTED for us?
    Mr. Battista. So it is basically crime prevention through 
environmental design. And there is always three components to 
crime--the victim, the suspect, and the environment. And if you 
can change the environment to make it safer and take that out 
of the tripod, then the crime cannot occur, and so that is what 
we are looking at doing. Target hardening is a common 
terminology used in that.
    Mr. Reichert. Right. Good. Well, thank you.
    I yield.
    Ms. Harman. Thank you. Instead of asking any more 
questions, I just want to make a couple of short comments. 
First of all, our Subcommittee was briefed recently on the way 
that the Department of Homeland Security is now focusing on 
critical infrastructure. I think it is fair to say that a 
couple of years ago it was a joke, and the list of critical 
targets included golf courses. I certainly like golf courses, 
but I don't think they should be on the list, and other pet 
projects of local officials.
    Now that list has a classified part and an unclassified 
part, and it is--I think I speak for all of us in saying this, 
because we were all there--very impressive document that is 
designed to do what you talked about, Mr. DeMello, which is 
really to identify truly vulnerable, important infrastructure, 
and put resources behind the effort to harden it. So I just 
wanted to put that out there.
    Second point is I want to commend Chief Battista. He 
mentioned the LEAP report of our Subcommittee. It was produced 
in the last Congress, and I just want to take the opportunity 
to thank the chief author who is here today, and that is our 
Staff Director, Tom Finan, who is sitting over there.
    And I want to associate myself with the comment that Dave 
Reichert made. We are bipartisan on this Subcommittee. We don't 
think that the security of America is a political football, and 
I really appreciate your appearance and testimony today.
    Thank you. You are excused.
    Our second panel should be coming up. I think your name 
tags are here. We all ready? Everybody ready?
    It is now my pleasure to welcome our second panel of 
witnesses, and I do hope the first panel is sticking around. 
That would be great. Major Jim Wolfinbarger serves as the 
Director of the State of Colorado's Office of Preparedness and 
Security and oversees operations within the Colorado State 
Patrol's Homeland Security Branch.
    He is responsible for management and oversight of the 
State's intelligence fusion center, which we have just heard 
about, the CIAC--perfectly named. It is the kind of thing one 
would want to have in Colorado. And the State's critical 
infrastructure protection team, known as Rubicon. Both of these 
efforts are designed to provide Colorado with a preventative 
capability to detect, deter, and mitigate the effects of a 
terrorist attack or other event.
    Major Wolfinbarger is a graduate of the 225th Session of 
the FBI's National Academy and the 176th Session of 
Northwestern University's School of Police Staff and Command. A 
Colorado native, he is a graduate of the University of Northern 
Colorado.
    Our second witness, Daniel Oates, serves as the Chief of 
Police for the Aurora Police Department, the one with the best 
Congressional representation on earth. That one. He is the 
Second Vice President of the Colorado Association of Chiefs of 
Police, as well as chair of the CACP's Legislative Committee.
    Prior to his appointment in Aurora, Chief Oates served for 
four years as Chief of Police and Safety Services Administrator 
for the city of Ann Arbor, Michigan. Before his arrival in Ann 
Arbor, Chief Oates served for 21 years at the NYPD. He finished 
his NYPD career--that is the New York Police Department for 
anyone on the planet who might not know that--as Deputy Chief 
and Executive Officer and second in command of the patrol 
burrough Brooklyn South. And he also served as Commanding 
Officer at the NYPD's Intelligence Division, very relevant to 
our conversation.
    Our third witness, Dr. Lloyd Burton, is a Professor of Law 
and Public Policy at the School of Public Affairs at the 
University of Colorado at Denver. He is Director of the 
school's program concentration in emergency management and 
homeland security, as well as the graduate division's 
certificate program in emergency management policy and 
planning.
    The author of two books and a wide array of journal 
articles and working papers, his current research is 
principally focused on the law of all hazards management and 
how the law can be used to either aid or impede--very 
important, or impede effective interagency and 
intergovernmental cooperation in disaster management.
    I quoted from you, Dr. Burton, so you will have extra time 
to defend yourself if it is necessary.
    Without objection, your full statements will be 
incorporated in the record, and we would urge you to summarize 
them in five minutes or less, so that we can have an 
interaction when we ask you questions. And we will start with 
Major Wolfinbarger.

  STATEMENT OF MAJ. JAMES M. WOLFINBARGER, DIRECTOR, COLORADO 
        OFFICE OF PREPAREDNESS, SECURITY AND FIRE SAFETY

    Major Wolfinbarger. Thank you, Chairwoman Harman, Ranking 
Member Reichert, and our Congressman Perlmutter. On behalf of 
the Department of Public Safety and Director Weir, I would like 
to thank you for the opportunity sit in front of you today and 
talk about the important issue of the Democratic National 
Convention, State's intelligence operations, as well as our 
critical infrastructure protection team in Colorado.
    You know, with an ongoing trend where we are seeing some 
dimming in terms of an awareness of the threat of terrorism, 
both domestic and international, it is important that in public 
safety we remain vigilant of the threats that do exist and the 
groups and individuals who seek solely to bring injury or death 
to Americans, as well as economic impact to our country.
    Prior to September 11, much of law enforcement's emphasis 
really did focus on domestic terrorism, training--we did 
weapons of mass destruction training, but the events of 
September 11 really brought that to bear. Following 9/11, the 
Commission report really identified one of the key weaknesses 
in government of the inability of government to be able to 
piece together disparate pieces of information, which all by 
themselves seem relatively benign, when in whole create a very 
sinister picture of an event about to occur.
    In Colorado, we have two assets inside of the Office of 
Preparedness, Security and Fire Safety that deal with these 
issues. First and foremost is the Office of--the fusion center 
in Colorado, the Colorado Information and Analysis Center, and 
I will refer to it from this point forward as the CIAC. The 
CIAC has a staff of employees that I have included as part of 
the written remarks, but specifically it produces intelligence 
reports for law enforcement and non-law enforcement personnel 
and is capable of providing real-time information to over 3,400 
recipients throughout the United States.
    We work to coordinate local, federal, state, and tribal 
nation information to provide an intelligence product for 
Colorado that has meaning. We have really focused on Colorado 
because of a lack of resources, specifically on early warning 
and as a means by which to be able to move information, and are 
working with our partners, with the metropolitan law 
enforcement agencies, sheriffs offices, and the El Paso area 
with Colorado Springs PD, and working to expand some of the 
functionality of support from a law enforcement all-crime 
standpoint.
    Inside of the CIAC, in addition to our staff, the Federal 
Bureau of Investigation, the Colorado National Guard, the 
Department of Corrections, Agriculture, and Education, Colorado 
Springs Police Department, Denver Police Department, Castle 
Rock Fire Department, Pueblo County Office of Emergency 
Management, all partner, both through FTE and through exchange 
of information, as well as the Aurora Police Department.
    Again, outside of the information sharing environment that 
really works within the CIAC, we have a Rubicon team. For once, 
we don't have an acronym associated with the team, Rubicon 
referring to the Julius Caesar mark that once we cross that 
proverbial line that mission must be accomplished. And the 
interdependency that exists between information sharing and 
fusion at a federal and at a national and a local level is key 
to look at what critical infrastructure, a) from an 
identification, b) from an assessment, and c) with an 
understanding that the vast majority of those critical 
infrastructures are privately held--again, coming out of the 9/
11 report, an estimation of 85 percent of critical 
infrastructure in the United States is privately held.
    I would suggest that it is slightly higher than that, 
particularly here in Colorado, and is really incumbent with, 
again, limited resources to be able to take a look at the 
threat information that comes in to the fusion center and take 
a look at helping to prioritize not only what are the 
consequences, should those be breach, but take a look at what 
are the threats that exist, so to help us as a State, to work 
with our private industry, to ensure that we do a good job of 
prioritizing, assessing, and hardening those key assets. That 
is particularly at heart when we are talking about the DNC and 
working with our partners with the city and county of Denver, 
as well as the Secret Service, and then our other partners at 
the federal level, with consequence management and FEMA and the 
FBI for the intelligence.
    During the DNC, as you know, we are going to have an IOC or 
this intelligence operations center. Colorado fusion center 
stands ready to plug into the IOC at a federal level to ensure 
that we can lend support from the bottom up, exactly what, 
Madam Chair, you had referred to about the importance of 
getting local information up through. And we have got a process 
in Colorado where we use a website as a means by which people 
can report suspicious activity up to the state fusion center.
    It is vetted, and then ultimately passed along to the 
appropriate jurisdiction, over to the NOC, the National 
Operations Center, and DHS in Washington, D.C., as well as our 
local field JTTF in Denver, with a very close working 
relationship with the Federal Bureau of Investigations Field 
Intelligence Group, or the FIG, out of Denver and have a full-
time analyst from the FIG stationed inside of the CIAC to 
ensure that consistency and passthrough of information--that it 
not only runs vertically but also horizontally, effectively to 
ensure a safe environment in Colorado.
    I now have a new very favorite phrase from you, Madam, is 
first preventer. I think it is important, particularly that we 
really hone our attention on the prevention aspect. Katrina 
taught us many lessons, and in Colorado we certainly have 
worked to ensure that we put an emphasis in public safety on 
the prevention aspect.
    In looking at those very limited dollars that are 
available, not only federally through Congress, but at a state 
level, to use them to our maximum benefit, so that under that 
umbrella of preparedness from a prevention standpoint we stand 
ready to fold in with our partners at Denver, partners at the 
federal level, and at our local level.
    Thank you.
    [The prepared statement of Major Wolfinbarger follows:]

             Prepared Statement of Major James Wolfinbarger

I. Introduction
    Chairperson Harman, Ranking Member Reichert and Congressman 
Perlmutter, thank you for the opportunity to discuss the Colorado State 
Patrol's and the Office of Preparedness and Security's efforts to fight 
terrorism and the progress we have made in the areas of information 
sharing and critical infrastructure protection.

II. The Terrorist Threat to Our Local Communities
    The terrorist threat to our communities involves continued domestic 
terrorism and international terrorist plots to inflict harm to 
Americans and interrupt our economy. This is a critical point to 
consider, given that the memories of September 11, 2001, have faded 
from the forefront of the minds of many Americans.

    A. Domestic Terrorism
    Prior to September 11, local and state law enforcement agencies 
primarily investigated domestic terrorist groups, including white 
supremacists, hate groups, and single-issue groups such as the Earth 
Liberation Front. Investigations centered on sub-cultures that were 
socially motivated by political ideologies to commit terrorism. The 
bombing of the Murrah Federal Building in Oklahoma City in 1995 had a 
catastrophic impact on American soil and brought together local, state 
and federal law enforcement to bring the terrorists to justice. 
However, in retrospect, Timothy McVeigh and Terry Nichols left a trail 
of clues that, if detected, could have prevented the attack, and the 
deaths of 168 people, including nineteen children. It is the 
collection, analysis and distribution of information to key end-users 
that we must focus upon to prevent an attack, rather than complacently 
believing that response and recovery activities are the only way to 
address acts of terrorism in America.

    B. International Terrorism
    Prior to September 11, international terrorism was not in the 
national consciousness. Despite the first World Trade Center bombing, 
most Americans did not realize the significant threat of Islamic 
extremism and the consequences of international terrorism. September 
11th changed the mindset of all Americans, including local and state 
law enforcement.

III. The Colorado Department of Public Safety's Response to Terrorist 
Threats
    Colorado has a number of critical infrastructure and key resource 
assets that would make our state an attractive target to terrorists, 
including four major sporting venues, the Denver World Trade Center, 
critical dams, tourist attractions and agricultural assets. Colorado 
has a high number of federal facilities and Colorado hosts multiple 
military assets that include Norad, U.S. NORTHCOM, Fort Carson, the 
U.S. Air Force Academy Buckley and Peterson Air Force Bases, which 
employ over 50,000 active-duty National Guard and Reserve personnel. 
Multiple defense contractors are situated in Colorado including 
Lockheed Martin, Ball, Boeing and Northrup Grumman. Colorado is also 
home the Federal penitentiary know as ``Supermax,'' which holds some of 
the world's most notorious criminals.
    The Colorado Department of Public Safety (CDPS) is required to 
establish an Office and Preparedness and Security (OPS) whose mission 
is to detect and deter acts of terrorism in Colorado.
        <bullet> Colorado Information Analysis Center
    A significant step toward the prevention of terrorism was the 
development of the Colorado Information Analysis Center (CIAC) in 2005. 
The CIAC strives to provide an integrated, multi-disciplinary 
information sharing network to collect, analyze, and disseminate 
information to stakeholders in a timely manner in order to protect the 
residents and the critical infrastructure of Colorado.
    The CIAC was designed as the State's fusion center to create cross-
jurisdictional partnerships between local, state and federal agencies 
and to include private sector participants. The fusion center concept 
is integral to the Department of Homeland Security (DHS) strategic 
initiative for information sharing.
    The CIAC produces intelligence reports for law enforcement and non-
law enforcement personnel and is capable of providing real-time 
information to over 3400 recipients throughout the United States. The 
CIAC coordinates local, state and federal agencies, as well as members 
of the critical infrastructure sectors, to ensure a coordinated 
intelligence exchange and to disseminate information and ``best 
practices'' in order to prevent or mitigate further attacks. The CIAC 
acts as an early warning system for actual or suspected terrorist acts, 
natural disasters and criminal activities.
    The CIAC strives toward an inclusive fusion center model. While the 
CIAC is managed by OPS and the Colorado State Patrol, several other 
organizations have made a commitment to the fusion center concept. 
These organizations include the Federal Bureau of Investigation; the 
Colorado National Guard; the Colorado Departments of Corrections, 
Agriculture, and Education; the Colorado Springs Police and Denver 
Police Departments; the Castle Rock Fire Department; the Pueblo County 
Office of Emergency Management; the University of Denver; and the U.S. 
Marshals Service.
        <bullet> Critical Infrastructure Protection (Rubicon Team)
    The Rubicon team is responsible for conducting full-spectrum 
integrated vulnerability assessments on Colorado's most critical 
infrastructure and key resources (CI/KR). The assessments include 
detailed on-site inspections that identify vulnerabilities from an all-
hazards approach, such as crime, natural disasters, sabotage, and acts 
of terrorism.
    During the all hazards, vulnerability assessment, the Rubicon team 
focuses on and evaluates six key areas for the CI/KR site: physical 
security, infrastructure, structural characteristics, emergency 
response, information technology, and business continuity. 
Vulnerabilities are identified and prioritized, and mitigation 
strategies are recommended with the ultimate goals of reducing 
potential loss of life, property damage and economic devastation. The 
Rubicon team coordinates with the Colorado Information Analysis Center 
to develop a current threat analysis for each site.

IV. Federal Partnerships and Collaborative Efforts
    The Colorado State Patrol, along with other Colorado law 
enforcement agencies, is an active participant in the Joint Terrorism 
Task Force (JTTF). The Patrol has assigned to the JTTF a trooper who 
acts as a conduit between both operations. The CIAC has an outstanding 
relationship with the Denver Field Intelligence Group (FIG), and an FBI 
analyst currently works in the CIAC on a full-time basis. The CIAC and 
the Denver FBI publish a joint monthly summary of activities occurring 
in Colorado and Wyoming.
    The OPS staff also collaborates and shares information with the 
Department of Homeland Security's Protective Security Advisor (PSA) who 
is assigned to Colorado and Wyoming.
    The OPS staff has a positive relationship with the Denver Secret 
Service office. The CIAC shared critical and time-sensitive information 
with the Secret Service during the recent shooting at the Colorado 
Capitol. This partnership will be further developed through the 
planning and implementation phases of the DNC.
    The city and county of Denver will host the (DNC) in August 2008. 
Denver expects thousands of visitors, delegates and support staff 
before, during and after the convention. The CIAC and the state's 
Critical Infrastructure Protection Team (RUBICON) will play vital role 
in the success of the DNC. Initial planning meetings have occurred in 
advance of the establishment of the Steering Committee.
    The relationships between OPS, the Denver FBI, the DHS PSA and the 
Denver Secret Service Office serve as excellent examples of 
partnerships with federal law enforcement agencies that provide the 
opportunity for extensive information sharing.

V. Conclusion
    The success of terrorism prevention and preparedness hinges on our 
ability to develop partnerships with other public and private sector 
organizations and to establish a comprehensive plan to detect, deter 
and defend Colorado against potential and actual acts of terrorism.
    Thank you again for the opportunity to appear before you today.

Attachment A
Colorado Information Analysis Center (CIAC)
Terrorism Liaison Officer (TLO) Program

June 1, 2007
    The Colorado Information Analysis Center is launching a Terrorism 
Liaison Officer (TLO) Program for law enforcement and first responder 
agencies throughout Colorado to strengthen information sharing and 
enhance multi-jurisdictional partnerships. The Colorado TLO Program 
mirrors the Arizona Counter Terrorism Intelligence Center (AcTIC) 
program and has been developed to provide a platform of local 
representatives to share information related to local and global 
terrorist and criminal threats and potential incidents. The TLO program 
creates an expansive, statewide network of personnel by combining local 
emergency responder and linking them to federal and state assets in 
order to provide an effective and viable two-way flow of information.
    A Terrorism Liaison Officer (TLO) is an identified person within a 
law enforcement, fire service or emergency management agency who is 
responsible for coordinating terrorist and other criminal intelligence 
information from their local agency to the Colorado Information 
Analysis Center. The information will be shared with the Federal Bureau 
of Investigation and the Department of Homeland Security, to ensure an 
inclusive and coordinated information sharing architecture for the 
state of Colorado.

Strengthen Information Sharing and Collaboration Capabilities
    The program is state-sponsored and managed through the CIAC, which 
provides a collaborative mechanism for information collection, analysis 
and dissemination. The unified approach provides participants with the 
ability to combine resources and to develop consistent methods and 
protocols that provide enhanced emergency response capability.
    The TLO will be trained in situational recognition, information 
analysis and information dissemination, threat vulnerabilities, 
domestic and international terrorism, and CFR 28 Part 23 compliance. 
The TLO member will also be trained to assist with vulnerability 
assessments and will collaborate with the state's Critical 
Infrastructure Protection Team (Rubicon) to ensure compatible and 
consistent implementation of risk assessment methodologies throughout 
the state.

TLO Daily/Weekly Operations
    The terrorism liaison officer will be the direct point of contact 
for the Colorado Information Analysis Center at the local level and 
will serve as a resource and subject-matter-expert within the nine all-
hazards regions.

    The TLO can participate in this program by assisting with the 
following:
        <bullet> Collect and report relevant field intelligence from 
        the local area to the CIAC
        <bullet> Assist with local terrorism awareness training
        <bullet> Disseminate information to field officers during roll 
        call or team meetings
        <bullet> Disseminate information to specialty task forces or 
        field units
        <bullet> Provide intelligence briefings to agency executive 
        staff
        <bullet> Provide intelligence briefings to regional 
        representatives

Statewide Intelligence Architecture
    The Terrorism Liaison Officer Program promotes the involvement of 
the selected individual working together with every first responder and 
participating private sector representative in a comprehensive 
prevention program. This program provides a statewide intelligence 
architecture designed to share and collect information and plan 
operations in relation to local and global threats. Collection, 
analysis and dissemination of information will be facilitated between 
the regions, the CIAC and Rubicon team and federal agencies. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Training
    The TLO Program curriculum is intended to provide line-level 
personnel with the ability and training to share and receive pertinent 
information regarding terrorist and criminal threats at a local, state 
and national level. The training will allow the TLO to have access to 
Colorado Information Analysis Center and the DHS Homeland Security 
Information Network (HSIN) databases and provide comprehensive case 
support at a local level.

Each participant will receive 24 hours of training. The extensive 
curriculum includes:
        <bullet> Domestic and international terrorist trends specific 
        to Colorado
        <bullet> Intelligence cycle and CFR 28 Part 23 compliance
        <bullet> Threat vulnerabilities
        <bullet> Rubicon Full Spectrum Integrated Vulnerability 
        Assessments
        <bullet> Situational recognition
        <bullet> All-crimes, all-hazards collection requirements
        <bullet> Information analysis and dissemination
        <bullet> Incident response to terrorist bombings
        <bullet> Prevention and response to suicide bombing incidents
        <bullet> Homeland Security Information Network (HSIN)
        <bullet> CIAC database and CIAC software availability

Governance
    The TLO program will be overseen by the Colorado Information 
Analysis Center Board of Executive Directors. The program merges 
multidiscipline response personnel under one governance structure.
    Terrorism liaison officers perform their function under the 
supervision of a TLO Coordinator (designed to be a chief fire officer) 
assigned to the CIAC. The TLO Coordinator will monitor the group's 
progress and will regularly report achievements and concerns to the 
CIAC Board of Executive Directors.
    The CIAC daily operations are under the supervision of a law 
enforcement sergeant who supervises the direction of analyst teams who 
will acquire data from TLO members. The analyst team supervisor also 
assists in the encouragement and refinement of the TLO participant 
efforts.
    The local Protective Security Advisor (PSA) for the U.S. Department 
of Homeland Security is an integral component of the TLO team. The PSA 
will actively participate in this collaborative melding of effort 
toward a common objective. The PSA will act as a liaison between the 
federal, and state and local homeland security efforts.

The Future of Colorado's Homeland Security Efforts
    Both Colorado and national homeland security strategies stress the 
criticality of information sharing and cross-jurisdictional 
partnerships in combating terrorism. The Colorado Information Analysis 
Center Terrorism Liaison Officer Program is integral to achieving this 
mandate and local, state and federal participation is critical to the 
safety of Colorado's residents.

Attachment B
Colorado Information Analysis Center (CIAC)
August 1, 2007

Prepared by the Colorado Department of Public Safety

Introduction
    The Colorado Information Analysis Center (CIAC) was designed as the 
State's fusion center to create cross-jurisdictional partnerships 
between local, state and federal agencies to include private sector 
participants. It provides one central point in Colorado for the 
collection, analysis and timely dissemination of all-hazards 
information. The fusion center concept is integral to the Department of 
Homeland Security (DHS) strategic initiative for information sharing.
    The mission of the Colorado Information Analysis Center is to 
provide an integrated, multi-discipline, information sharing network to 
collect, analyze, and disseminate information to stakeholders in a 
timely manner in order to protect the citizens and the critical 
infrastructure of Colorado.
    The CIAC produces intelligence reports for law enforcement and non-
law enforcement personnel and is capable of providing real-time 
information to over 3400 recipients throughout the United States. The 
CIAC coordinates with state and federal agencies, as well as members of 
the critical infrastructure sectors, to ensure a coordinated 
intelligence exchange and to disseminate information and ``best 
practices'' in order to prevent or mitigate further attacks. The CIAC 
acts as an early warning system for actual or suspected terrorist acts, 
natural disasters and criminal activities and helps to facilitate 
comprehensive protection strategies and unified response tactics.
    The CIAC is integrated into the national network of state fusion 
centers, which have the ability to share information horizontally and 
vertically with partners at the local, state, Tribal Nation and federal 
levels. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Statutory Authority
    During the 2002 Legislative Session, H.B. 02-1315 statutorily 
created the Office of Preparedness, Security and Fire Safety (OPSFS) as 
a division within the Colorado Department of Public Safety. OPSFS 
consists of the Division of Fire Safety and the newly-created Office of 
Anti-Terrorism Planning and Training.
    The first duty of the new director was ``to inquire into the threat 
of terrorism in Colorado and the state of preparedness to respond to 
that threat and to make recommendations to the Governor and the General 
Assembly.''

Colorado's Strategic Direction
    The National Strategy for Homeland Security assigns to state and 
local governments the ``primary responsibility for funding, preparing, 
and operating the emergency services that would respond in the event of 
a terrorist attack.''
    The Colorado Homeland Security Strategy provides state and local 
officials with the means to develop interlocking and mutually 
supporting emergency preparedness programs. It is a guide to the on-
going efforts fostering interagency collaboration and decision-making.
    Colorado has identified the following 12 goals--with 60 separate 
objectives--as critical to its ongoing homeland security efforts. (All 
goals are considered to be one in the same for priority status).

        1. Planning
        2. Training and Exercises
        3. Information Sharing
        4. Communications Interoperability
        5. Critical Infrastructure Protection
        6. Cyber Security
        7. Food and Agriculture Protection
        8. Public Health Protection
        9. Citizen Participation
        10. Continuity of Government
        11. Emergency Responder Capabilities
        12. Strengthening CBRNE Detection Capabilities

    The Department of Local Affairs (DOLA) is responsible for the 
development, maintenance and tracking of the Strategy. DOLA will 
facilitate collaboration across state agencies to organize the 
Strategy, share responsibilities and eliminate duplication of efforts.

Organizational Structure
    In July 2004, former-Governor Owens designated the Colorado 
Department of Local Affairs (DOLA) as the State Administrative Agency 
(SAA) for all Department of Homeland Security grants and resources. He 
appointed the Executive Director of DOLA as the point of contact for 
the U.S. Department of Homeland Security. The Executive Director of 
Colorado Department of Public Safety remained the State Homeland 
Security Advisor (HSA).
    In April 2005, the CDPS Executive Director transferred members of 
the Colorado State Patrol (CSP) into the Office of Preparedness and 
Security to assume control of the responsibilities outlined in H.B. 02-
1315. This also shifted oversight responsibility for the CIAC to a 
State Patrol Major, who was named the OPS Director.
    Although the Colorado Information Analysis Center (CIAC) is managed 
by the Colorado State Patrol, it is designed to be a cross-
jurisdictional partnership between local, state, and federal agencies, 
to include critical infrastructure sector participation. CIAC policy is 
guided by a Board of Executive Directors, who represent local, county, 
state, Tribal Nation levels of government and include the:

        <bullet> Colorado Department of Public Safety (chair)
        <bullet> Lieutenant Governor's Office (co-chair)
        <bullet> Colorado Commission on Indian Affairs
        <bullet> Colorado State Fire Chiefs Association
        <bullet> Colorado Departments of Corrections
        <bullet> Colorado Department of Agriculture
        <bullet> Colorado Department of Public Health and Environment
        <bullet> Colorado Chiefs of Police
        <bullet> County Sheriffs Association of Colorado
        <bullet> Colorado Emergency Managers Association
        <bullet> Colorado National Guard
        <bullet> Attorney General's Office

Staffing
    The Colorado Information Analysis Center is designed to be staffed 
24-hours per day, seven days a week by a combination of law enforcement 
and civilian personnel. However, due to limited staffing levels, the 
CIAC is fully operational from 7:00 am to 5:00 pm, Monday through 
Friday. CIAC analysts are on-call after hours and on weekends.
    There are currently seven full-time staff assigned to the CIAC, 
including one CSP sergeant who acts as the CIAC manager, three CSP 
troopers, one FBI analyst and two Colorado National Guard sergeants. 
The Patrol has committed an additional, part-time trooper to the CIAC. 
An additional trooper is assigned full-time to the Denver Joint 
Terrorism Task Force (JTTF).
    The CIAC currently depends on part-time, augmented staffing to 
include representatives the U.S. Marshall's Office, Castle Rock Fire 
Department, Pueblo County Emergency Management, University of Denver 
and the Colorado Departments of Corrections, Education, Agriculture and 
Health. The augmentee's time in the CIAC totals approximately two full-
time employees.

CIAC Operations and Products
    The Colorado Information Analysis Center is divided into three 
sections: Threat Analysis, Watch Center/Early Warning Alerts and 
Requests for Information (RFIs)/Case Support. The CIAC staff take an 
all-crimes, all-hazard approach to the intelligence cycle and focus on 
counterterrorism, criminal interdiction, public health threats, 
agricultural threats, officer or public safety threats and natural 
disasters.
Threat and Analysis: The CIAC composes daily reports for dissemination 
to approximately 3400 key stakeholders and decision makers in the 
emergency services and critical infrastructure sectors. Sensitive 
information is distributed to the law enforcement community via ``Law 
Enforcement Sensitive'' reports via email or in-vehicle mobile data 
computers (MDCs).
Watch Center/Early Warning Alerts: In the event of an actual or 
suspected criminal or terrorist attack, the CIAC coordinates with 
members of the affected critical infrastructure sectors, the Division 
of Emergency Management (DEM), the JTTF and DHS to ensure a coordinated 
intelligence exchange and to disseminate information and ``best 
practices'' in order to prevent or mitigate further attacks.
Requests for Information/Case Support: Agencies can utilize the CIAC 
analysts for routine requests for information and case support. CIAC 
analysts will assist agencies by providing the requesting agency with 
link analysis, database searches and through the coordination of 
information between local, state and federal agencies.
    Information is collected from a variety of federal, state and local 
resources within both the public and private sectors to include:
                          RMIN
                         USNORTHCOM
                         SIPRNET
                         CIA
                         LEO
                         JRIES
                         NCIC
                         FPS Portal
                         DHS Info Bulletins
                         FBI Bulletins
                         JTTF
                         EPIC
                         Other State Fusion
                          Centers
                         Local Jurisdictions
                         Industry
                          Representatives
                         State Agencies
                         Private Citizens
Guiding Documents
    The CIAC follows federal fusion center and information sharing 
policies. CIAC policies, procedures and operations utilize the Bureau 
of Justice Operating Policies for 28 CFR Part 23 compliance, Global 
Justice Information Sharing Initiative Fusion Center Guidelines and the 
Bureau of Justice National Criminal Intelligence Sharing Plan as 
guiding documents.

Terrorism Liaison Officer (TLO) Program
    In July 2007, the Colorado Information Analysis Center launched a 
Terrorism Liaison Officer (TLO) Program for law enforcement and first 
responder agencies throughout Colorado to strengthen information 
sharing and to enhance multi-jurisdictional partnerships. The Colorado 
TLO Program mirrors the Arizona Counter Terrorism Intelligence Center 
(AcTIC) program and has been developed to provide a platform of local 
representatives to share information related to local and global 
terrorist and criminal threats and potential incidents. The TLO program 
creates an expansive, statewide network of personnel by combining local 
emergency responder and linking them to federal and state assets in 
order to provide an effective and viable two-way flow of information. 
Sixty-two TLOs were trained in the inaugural course.
    A Terrorism Liaison Officer (TLO) is an identified person within a 
law enforcement, fire service or emergency management agency who is 
responsible for coordinating terrorist and other criminal intelligence 
information from their local agency to the Colorado Information 
Analysis Center. The information will be shared with the Federal Bureau 
of Investigation and the Department of Homeland Security, to ensure an 
inclusive and coordinated information sharing architecture for the 
state of Colorado.
    The Terrorism Liaison Officer Program promotes the involvement of 
the selected individual working together with every first responder and 
participating private sector representative in a comprehensive 
prevention program. This program provides a statewide intelligence 
architecture designed to share and collect information and plan 
operations in relation to local and global threats. Collection, 
analysis and dissemination of information will be facilitated between 
Colorado's nine all-hazards regions, the CIAC and Rubicon team and 
federal agencies.

CIAC Accomplishments
    Training: CIAC staff, in conjunction with the Rubicon team and 
members of the CSP Homeland Security Unit, have spent an inordinate 
amount of time educating law enforcement agencies, emergency services 
sectors, critical infrastructure representatives and members of the 
public in the role of the CIAC and the Rubicon team, recognition of 
indicators, information sharing processes and critical infrastructure 
protection. As of June 1, 2007, the staff have trained over 1,500 first 
responders and have provided over seventy-five formal presentations 
statewide on the role of the CIAC.
    Regional Information Sharing Meetings: In order to facilitate 
information sharing statewide, the CIAC staff have initiated a series 
of Regional Information Sharing Meetings (RISMs) to be held in various 
locations throughout 2007. The RISMs are designed to provide members 
from various law enforcement agencies within a specific geographic 
location a current threat update from the CIAC and to allow officers 
the ability to exchange threat and criminal information in an informal, 
yet confidential, setting. The RISMs afford members of the critical 
infrastructure sectors the same opportunity in a separate meeting.

        2007 CIAC Regional Information Sharing Meeting (RISM) Schedule:
                        9:00 am_11:00 am Unclassified Version
                  1:00 pm_3:00 pm Law Enforcement Sensitive Version                      Date                  Location             February 20, 2007       Centennial, Colorado
             April 24, 2007          Pueblo, Colorado
             August 8, 2007          Durango, Colorado
             August 21, 2007         Centennial, Colorado
             September 18, 2007      Vail, Colorado
             November 13, 2007       Ft. Collins, Colorado
    Early Warning Alerts: As historical data has proven that terrorists 
engage in simultaneous, coordinated attacks, the Colorado Information 
Analysis Center acts as an alert and warning center for the 1600 
customers on the email distribution list and over 2300 law enforcement 
officers on the mobile data computer (MDC) distribution list. The CIAC 
has the capacity to collect, analyze and disseminate real-time threat 
information, while providing recommended protective measures to the 
affected critical infrastructure and emergency services sectors. In an 
actual or suspected attack, CIAC analysts coordinate threat information 
with local officials, local emergency operation centers, and federal 
assets.
    The CIAC has acted as an early alert warning center in the 
following instances:

                                           CIAC Early Warning Alerts: <bullet> July 7, 2005:                                                                     Multiple attacks on London Transit System
<bullet> July 21, 2005:                                                            Second Attempted Attacks on London Transit System
<bullet> November 10, 2005:                                               Possible VBIED at Arvada City Complex
<bullet> August 10, 2006:                          Disrupted Plot ato Attack U.S. Bound Airplanes from the U.K.
<bullet> September 28, 2005:                                    Armed Gunman Siege at Platte Canyon High School
<bullet> April 20, 2007:                            Improvised Explosive Devices found at Ponderosa High School
Specific Examples of Case Support:
<bullet> CIAC Trac Phone Cases
<bullet> Dates: Throughout 2006 and the beginning of 2007
<bullet> Summary: The CIAC received several reports from local law 
enforcement agencies reference suspicious purchases of Trac phones. 
These large purchases of Trac phones from department stores across the 
front range of Colorado and Wyoming have a direct link to funding and 
support to an international terrorist group. Due to the case support 
and CIAC reports generated, all cases were linked together. This case 
is still under investigation by the Denver JTTF and local law 
enforcement agencies.

<bullet> Colorado Copper Thefts
<bullet> Dates: September 2006 to May 2007
<bullet> Summary: The cities and counties of Colorado's front range 
were targeted by a large number of copper thefts. Due to the sharing of 
case information from 12 agencies across the front range, CIAC analysts 
were able to link the case information together. Due to this diligence, 
a warrant was issued for a suspect tied to all cases. This is an 
example of the criticality of statewide information sharing resulting 
in a successful arrest.

<bullet> Denver Khat Ring Tied to International Terrorist Groups
<bullet> Date Arrested: December 8, 2006
<bullet> Summary: On December 8, 2006, the Colorado Information 
Analysis Center (CIAC) received a call from a civilian mail clerk 
stating she had information regarding suspicious packages that were 
delivered to their address. The CIAC contacted the local law 
enforcement agency and officers responded to the location and began an 
investigation. During the investigation, it was determined that the 
packages contained approximately 65 pounds of a stimulant called 
``Khat''. Several suspects were taken into custody as part of the on-
going investigation. The arrested suspects were determined to have ties 
to international terrorist groups. Federal charges are pending.

<bullet> DEA Case Support
<bullet> Date: March 2007
<bullet> Summary: The CIAC received a phone call from a private citizen 
who wanted to report that his son was involved in a criminal ring in 
the Denver-metro area. The information was passed along to the FBI 
Rocky Mountain Safe Streets Task Force (RMSSTF). Based on the 
preliminary CIAC investigation and through the collaboration with the 
RMSSTF investigators, an international crime and drug ring was 
uncovered. DEA agents from Washington DC flew to Denver to take over 
the investigation.

<bullet> Firebombing of SUVs in Denver
<bullet> Dates: March 18_21, 2007
<bullet> Summary: The city of Denver Fire Department responded to seven 
cases of SUVs being firebombed. Initial FBI investigation showed a 
possible link to the domestic terrorist group ELF. A CIAC report was 
requested by the investigators. The CIAC report was sent out with a 
description of the suspect vehicle, and the suspect was arrested 
shortly thereafter due to the information placed in the CIAC report. 
This case is still being investigated by the Denver Fire Department and 
the Denver JTTF.

Conclusion
    New security challenges require a new approach and following the 
Department of Homeland Security's (DHS) lead, Colorado has moved to a 
centralized counter-terrorism effort in order to enhance interagency 
cooperation and expedite information flow. The Office of Preparedness 
and Security and the Colorado Information Analysis Center are dedicated 
to strengthening Colorado's prevention, preparation and emergency 
response capabilities for all disasters.

    Ms. Harman. Thank you.
    Chief Oates, five minutes.

 STATEMENT OF DANIEL J. OATES, CHIEF OF POLICE, AURORA POLICE 
                          DEPARTMENT;

    Chief Oates. Thank you for this opportunity. I am very 
happy to be here today and to represent the 775 members of the 
Aurora Police Department, as well as the City Manager, the 
Mayor, and Council. We in Aurora are very proud to play host, 
and to represent today our 308,000 citizens.
    I would like to first offer some comments about the 
convention and then transition into the broader intelligence 
discussion. Colorado's law enforcement agencies have a critical 
role to play in the security of the upcoming convention, and we 
look forward to the opportunity to serve. On August 1, I 
forwarded a letter to Chief Gerry Whitman of the Denver Police 
Department in which I pledged that 300 officers--50 percent of 
our available uniform strength--will be available to the Denver 
Police Department for the week of the convention.
    We did not undertake this commitment lightly. To deliver on 
what we promised, we will need to do extraordinary things. We 
will, for example, cancel all vacations and leaves, reduce our 
services in Aurora to only the most essential functions, turn 
plainclothes officers and detectives and supervisors into 
uniformed street cops, engage in extensive training, and we 
will likely place most of our personnel on 12-hour tours for 
the duration of the event.
    This will be a great burden for our department, and we 
undertake it because we believe we have an obligation to do so. 
The Aurora Police Department and our colleagues in Colorado law 
enforcement have a long history of coming to each other's aid 
when asked. Beyond that, it is vital to all of Colorado that 
the DNC be a success, a safe and secure event that promotes the 
national interest, a symbol of our American democracy.
    In the process, our officers are also going to get a 
lifetime experience, a career-enriching moment. So we are 
looking forward to that as well.
    Now, I would be remiss if I didn't also state that we in 
local law enforcement expect our Federal Government to pay for 
our services. We are relying on our colleagues in Denver to 
work out the funding and reimbursement details, and, as you 
know, they are not quite worked out yet. But this is a national 
security event of the first order, and we expect our national 
government to pay for the security that not just Denver but 
cities like Aurora will provide.
    In fact, I have made clear to my colleagues in Denver that 
our offer of assistance of 300 Aurora police officers is 
contingent upon Aurora taxpayers recovering the full cost of 
that assistance.
    In our desire to create the best possible physical security 
umbrella for the Pepsi Center and the other DNC sites, by the 
way some of which may not even be in Denver--there is the 
possibility that some events will be in neighboring 
communities, even in Aurora. We cannot forget our need for the 
best possible coordination of intelligence among all of law 
enforcement--federal, state, and local.
    Since September 11, and with the advent of the Department 
of Homeland Security, we in local law enforcement have seen 
billions of ``homeland security'' money distributed throughout 
the land. My personal observation is that in that distribution 
of this money not enough priority has been placed on the use of 
smart, effective criminal intelligence to make our community 
safer.
    After September 11, 2001, we all have a new appreciation 
for the threat of terrorism, while cops and police chiefs know 
that all terrorists are, first and foremost, criminals. Anyone 
who would threaten the safety and security of the DNC is a 
criminal. We have many tools to fight criminals. Denver PD and 
its colleagues have the resources to lay down a first-class 
security blanket around the DNC. They will do the best job that 
a modern American law enforcement can do to physically protect 
this event.
    Where we are not as strong as we should be is in the area 
of criminal intelligence. We have an urgent need in Colorado 
for more and better intelligence on criminals, more capacity to 
identify them, to pool and share our knowledge, to link data 
systems, to apply the most advanced analytical tools.
    This, of course, is an issue for Colorado that goes well 
beyond their needs for the DNC in August of 2008. However, the 
DNC presents the ideal opportunity for us locally and for the 
Federal Government to aid Colorado law enforcement in solving 
its long-term criminal intelligence needs. As has been spoken, 
we will, of necessity, build a world-class intelligence 
apparatus for the DNC. What we need to do now is to plan a way 
to sustain that intelligence apparatus permanently in Colorado 
long after the DNC has left.
    In the recent months, law enforcement leaders throughout 
the State have begun to talk about a long-term solution. That 
vision we have come to embrace has two parts. The first is that 
of a linked network of all records management systems and other 
valuable data systems of all the police agencies in the State. 
The second is a robust 24-hour all-crimes or intelligence 
fusion center that every cop in the State can access for 
assistance to fight crime.
    Even though many agencies such as Aurora have robust and 
modern data systems, we are not linked, as we should be, to the 
rest of Colorado police agencies. Beyond merely linking data, 
our vision calls for a modern system with state-of-the-art 
analytical tools, one that can, for example, probe and make 
sense of all kinds of disparate data, that can perform visual 
link analysis, that can respond to ad hoc queries by talented 
analysts and detectives, and that can find the link, for 
example, between a license plate, a phone number, a suspect's 
description, a nickname, a tattoo, or a particular method of 
committing crime.
    The good news, Congressman Reichert, is that some of the 
larger agencies in the metro area have already found a 
solution, and it is what you mentioned; it is Cop Link. This 
last year Jefferson County Sheriff's Department partnered with 
nine local police agencies in the county and purchased Cop 
Link. That is generally recognized nationally by police chiefs 
as an excellent, if not the best, state-of-the-art solution.
    Within the next 18 months, we now predict that Aurora, 
Grand Junction, several state law enforcement entities, and the 
counties of Arapahoe, Adams, and Mesa, will all buy this 
product and join the growing Colorado intelligence sharing 
consortium. We actually think it will be a force that can't be 
stopped.
    The biggest hurdle to this first part of our grand vision 
is, as you might expect, the financing. That is where you 
folks, influential elected officials, can help us. Just a few 
weeks ago, Denver, for example, took the lead in the local 
Denver metro area in applying for the Cops Office 2007 seven-
technology program. It seeks $3.4 million to jumpstart our 
grand vision.
    Aurora and 20 other agencies partnered with Denver in this 
application. Approval of this grant is absolutely critical for 
us to get jumpstarted on our way. We also--
    Ms. Harman. Chief, we need you to summarize, because the 
time has expired.
    Chief Oates. Okay. We also know that in evaluating these 
grants, okay, regional cooperation is the stated intent of 
Congress. So I can't think of a better example than 22 agencies 
in the Denver metro area on the eve of the DNC seeking this 
vision.
    The second piece is the piece we talked about earlier with 
the CIAC, the broad expansion of the CIAC to a true 24-hour 
regional intelligence center where all agencies are kicking in 
resources. That also is something that is not funded. Mike 
Battista talked about the FTE issue, and that is something we 
are also looking for support on.
    So thank you for this opportunity to appear today, and I 
would be happy to answer questions.
    [The prepared statement of Chief Oates follows:]

              Prepared Statement of Chief Daniel J. Oates

    Members of Congress:
    Thank you for this opportunity to testify today and to represent 
the 775 wonderful men and women of the Aurora Police Department, as 
well as the City Manager and the Mayor and Council of Colorado's third 
largest city.
    We in Aurora are proud to play host to this important hearing 
today, and on behalf of our 308,000 citizens, I welcome you to our 
great city.
    I speak to you today not only as the chief executive of the third 
largest police department in the state (and the second largest in the 
Metro Area), but also as a member of the Executive Board of the 
Colorado Association of Chiefs of Police. So I am proud to represent 
today the voice of Colorado's local and municipal police agencies.
    We have convened here today to discuss two important issues: first, 
the broad issue of intelligence sharing and how law enforcement can use 
intelligence effectively to keep Colorado safe in a dangerous, post 9/
11 world; and second, how we can all do our part to make the Democratic 
National Convention in August of 2008 a safe and successful event.
    I'd like first to offer comments about the Convention and then to 
transition into a discussion about the broader intelligence challenges.
    Colorado's law enforcement agencies have a critical role to play in 
the security of the upcoming Democratic National Convention, and we 
look forward to the opportunity to serve.
    On August 1st, I forwarded a letter to Chief Gerry of the Denver 
Police Department in which I pledged that 300 officers--50 percent of 
our available uniformed strength--will be available to assist the 
Denver Police Department for the week of the Convention.
    We did not undertake this commitment lightly. To deliver on what we 
have promised, we will need to do extraordinary things. We will, for 
example, cancel all vacations and leaves, reduce our services in Aurora 
to only our most essential functions, turn plainclothes detectives and 
supervisors into uniformed street cops, engage in extensive training, 
planning and preparation for the next 12 months, and we will likely 
place most of our personnel on 12-hour shifts for the duration of this 
National Security Event.
    This will be a great burden and a challenge for our entire 
Department. We undertake this effort because we believe we are obliged 
to do so. Denver has asked for our help. The Aurora Police Department 
and our colleagues in Colorado law enforcement have a long history of 
coming to each other's aid when asked.
    Beyond that, it is vital to all of Colorado that the DNC be a 
success--a safe and secure event that promotes the national interest--a 
symbol of our American Democracy in action. With the support of the 
City Manager and our elected leadership, Aurora will do its part to 
assist Denver and Colorado.
    And in the process, our officers will gain once-in-a-lifetime 
experience in policing a major National Security Event, an experience 
that will enrich their careers.
    We recognize the role of our federal partners in this event, 
starting with the lead agency, the United States Secret Service. We 
know that our colleagues in federal law enforcement, particularly the 
Secret Service and the FBI, will provide leadership, guidance, staff 
resources and intelligence to support the security umbrella that must 
be put in place.
    I would be remiss, of course, if I didn't also state that we in 
local law enforcement expect our federal government to pay for that 
security umbrella. We are relying on our colleagues in Denver to work 
out the funding and reimbursement details, but this is a national 
security event of the first order. We expect our national government to 
pay for the security that not just Denver, but all of Colorado law 
enforcement, will provide.
    In fact, I have made clear to my Denver colleagues that our offer 
of assistance to the Denver Police Department is contingent upon 
Aurora's taxpayers recovering all the costs of sending 300 officers a 
day to police the DNC.
    In our desire to create the best possible physical security 
umbrella for the Pepsi Center and other DNC sites--some of which, by 
the way, may be outside Denver in neighboring communities, perhaps even 
in Aurora--we cannot forget our need for the best possible coordination 
of intelligence among all of law enforcement--federal, state and local.
    Since September 11, and with the advent of the Department of 
Homeland Security, we in local law enforcement have watched billions of 
dollars of ``homeland security'' money distributed throughout the land. 
My personal observation is that in the distribution of this money, not 
enough priority has been placed on the use of smart, effective criminal 
intelligence to make our communities safer.
    After September 11, 2001, we all have a new appreciation for the 
threat of terrorism. Cops and police chiefs know that all terrorists 
are, first and foremost, criminals. Anyone who would threaten the 
safety and security of the DNC is a criminal. We have many tools to 
fight criminals. Denver P.D. and its colleagues have the resources to 
lay down a first-class security blanket around the DNC. They will do 
the best job modern American law enforcement can do to physically 
secure a site and keep criminals away.
    Where we are not as strong as we should be is in the area of 
criminal intelligence. We have an urgent need in Colorado for more and 
better intelligence on criminals, more capacity to identify them, to 
pool and share our knowledge, to link data systems, to apply the most 
advanced analytical tools, to identify the trends and intentions of the 
bad guys, and even to predict when and where they might strike next.
    This, of course, is an issue for Colorado that goes well beyond our 
needs for the DNC in August, 2008. However, it is the DNC that presents 
the ideal opportunity for us locally, and for the federal government, 
to aid Colorado law enforcement in solving its long-term criminal 
intelligence needs.
    Of necessity, we will temporarily build a world-class criminal 
intelligence apparatus to support the 2008 DNC. What we need to do now 
is to plan how to sustain that criminal intelligence apparatus 
permanently in Colorado, long after the DNC has ended.
    In recent months, law enforcement leaders throughout the state have 
begun to talk about fashioning a long-term solution. The vision we have 
come to embrace has two parts: The first is that of a linked network of 
all the records management systems and other valuable data systems of 
all the police agencies in the state. The second is a robust, 24-hour 
``all crimes'' intelligence or ``fusion'' center that every cop in the 
state can access for assistance to fight crime.
    Even though many agencies, such as Aurora, have robust and modern 
data systems, we are not linked as we should be to the other Colorado 
police agencies. This weakness places Colorado well behind other 
states' law enforcement communities.
    Beyond merely linking data, our vision calls for a modern system 
with state-of-the-art analytical tools--one that can, for example, 
probe and make sense of all kinds of disparate data, that can perform 
visual link analysis, that can respond to ad queries by talented 
analysts and detectives, that can find the link, for example, between a 
license plate, a phone number, a suspect's description, a nickname, a 
tattoo, a particular method of committing crime.
    The good news is that some of the largest agencies in the metro 
area have already found the solution, although cost remains a hurdle. 
In the last year, the Jefferson County Sheriffs Department, partnering 
with nine local police agencies in the County, purchased a proprietary 
product that is generally recognized nationally by police chiefs as an 
excellent, if not the best, state-of-the-art solution. Within the next 
18 months or so, we now predict that Aurora, Grand Junction, several 
state law enforcement entities, and the Counties of Arapahoe, Adams and 
Mesa will all buy this product and join this growing Colorado 
intelligence-sharing consortium.
    Our vision is that this leap into modern, 21st Century policing 
will become so effective, so appealing, so rich with success stories 
about bad guys caught in the act or prevented from victimizing others, 
that eventually every police agency in the state will join us. Our 
vision is also that the funding to do this will follow, because 
influential elected officials like you will embrace and support it. 
This crime-fighting network will become a force that can't be stopped.
    The biggest hurdle to this first part of our grand vision is, as 
you might suspect, the financing. This is where you, as Congressional 
leaders, can help Colorado. Just a few weeks ago, Denver took the lead 
on this issue in applying for a grant through the COPS Office 2007 
Technology Program. It seeks $3.4 million to jumpstart our grand 
vision. Aurora and 20 other agencies with Denver in the application. 
Approval of this grant is the absolutely critical event that will get 
us jumpstarted on our way.
    We know that in evaluating grants these days, Congress has placed 
the highest priority on regional solutions to homeland security 
deficiencies. Well, we can't imagine a better regional solution or 
vision than that embodied in Denver's recent COPS grant application. 
Your support for this application, as well as for more federal 
assistance in the future to build out our intelligence-sharing 
capacity, is the number one thing you can do to improve security in 
Colorado.
    The second part of our vision for intelligence sharing involves 
expanding the role and depth of the Colorado Information and Analysis 
Center (CIAC). Several police chiefs and sheriffs here have just 
recently begun to press to expand the CIAC into a full-time 
intelligence or ``fusion'' center, one that is staffed by 30 or more 
federal, state and local law enforcement officials.
    This second part of our new vision for Colorado will require 
assistance and resources that we don't have now. I am sure you have 
been briefed on the best fusion centers and systems that have sprung up 
in other states since 9/11. We want to achieve the same here in 
Colorado, with your help.
    As law enforcement leaders, we also recognize that everything we do 
to improve intelligence sharing in Colorado must be done in such a way 
as to protect individual rights and civil liberties. Everything we 
propose, and every system we will use, will at all times be in 
compliance with the letter and spirit of 28 CFR Part 23. This is 
consistent with best practices in law enforcement and with the stated 
policies of our agencies and that of the International Association of 
Chiefs of Police.
    In closing, I echo the sentiments of my law enforcement colleagues 
here today The upcoming Democratic National Convention will provide us 
with great challenges in the days ahead, but great opportunities as 
well. I urge you to use your influence in Congress to support us with 
the financial resources we need to have a safe convention, and with the 
additional resources to build a state-of-the-art criminal intelligence 
infrastructure in Colorado that will keep our citizens safe while 
protecting their rights.
    Thank you again for the opportunity to appear before this 
committee. I would be happy to answer any questions you may have.

    Ms. Harman. Thank you very much.
    Dr. Burton?

  STATEMENT OF LLOYD BURTON, PH.D., GRADUATE SCHOOL OF PUBLIC 
           AFFAIRS, UNIVERSITY OF COLORADO AT DENVER

    Dr. Burton. Thank you. First, Madam Chair, Ranking Member 
Reichert, Representative Perlmutter, I wish to on my own 
behalf, on behalf of my school and the University of Colorado, 
express my gratitude for having been invited to appear today. 
Secondly, I also, then, need to say that all of the views and 
opinions I express here this morning are solely my own and 
don't necessarily represent those of the university.
    The academic perspective on emergency management and 
homeland security, which I am bringing to bear on studies--a 
study of interagency and intergovernmental relations in the 
lead-up to the Democratic National Convention--is based on the 
observation of the philosopher George Santa Ana, who said those 
who cannot learn from history are doomed to repeat it.
    So academia is largely about how can we learn from our past 
experience, especially in the realm of emergency management and 
homeland security, that will help us to do better in the 
future? And that is very much what my project is about.
    What I am looking at is four dimensions of interagency and 
intergovernmental coordination. First is statutory mandates. 
Are there ways in which the laws at the federal, state, or 
local level do not articulate well and leave a confused state 
insofar as the agencies are concerned? Second are questions of 
interoperability, both technological interoperability but more 
importantly in this case administrative interoperability.
    What are the conditions that facilitate effective 
interagency coordination? What are some of the things that can 
kind of get in its way?
    Third, the allocation of fiscal burdens, which you have 
already just heard a good bit about. And then, fourthly, 
relations with the public--community and public relations. It 
is the second and fourth of those dimensions I want to touch on 
particularly here today.
    Chairwoman Harman's observation at the beginning here was 
very well taken with regard to not either/or when it comes to 
national security, and securing the blessings of liberty for 
ourselves and our posterity. We talk a lot in public management 
about management statements and mission statements.
    There was a mission statement that the framers of the 
United States Constitution actually put together, and it is in 
the preamble. It consists of six parts--to form a more perfect 
union, establish justice, ensure domestic tranquility, provide 
for the common defense, promote the general welfare, and secure 
the blessings of liberty for ourselves and our posterity.
    Nowhere in the Constitution does it talk about which one is 
more important than the other, and we are left with the 
impression by the framers that we are supposed to do all of the 
above all the time.
    What has happened over the years is that Congress has 
created a variety of different cabinet-level departments and 
subordinate agencies, each of which is very good at 
accomplishing one of these objectives. Whether it is national 
defense or homeland security or promoting the general welfare, 
there is no executive agency that has as its lead 
responsibility and in terms of mission statement securing the 
blessings of liberty. That has mostly fallen to the courts, 
with the possible exception of the Civil Rights Division of the 
Justice Department.
    So each of the agencies the Congress has created to perform 
their single purpose missions has resulted in agencies that are 
very good at doing what Congress instructed them to do insofar 
as single purpose function is concerned. Each of these agencies 
has its own esprit decor, its own norms and values, ways of 
doing things, what we refer to in the public management 
literature as an organizational culture.
    Unfortunately, the very things that make them--those very 
qualities that make them so effective as stand-alone agencies 
sometimes can actually impede their ability to work effectively 
together. So that is one of the dynamics that I am having a 
particular look at, and I have some suggestions in that regard 
I can share with you later if you wish.
    What I am suggesting primarily in this regard is that in 
addition to the agencies, which also of course are reflective, 
look at their own past experience and try to learn from it, at 
the federal level when it comes to after-action reporting 
essentially, the agencies are essentially asked to fill out 
their own report cards, in terms of how things went and what 
might be done better in the future.
    One of the suggestions I think is worth reflecting on 
considering is the possibility of having real-time performance 
auditing of the agencies in action, certainly at all NSSE 
events and at any disaster, whether accidentally or naturally 
or intentionally caused at which federal aid is necessary--to 
come in and have somebody completely outside the command 
structure to just see how things are going in terms of 
interagency coordination. Are they going well, not so well, 
what might be done best in the future?
    In the realm of community relations, I have--I am having a 
particularly hard look--there are four case studies, our top-
off one the G-8 Summit and the 2004 Democratic and Republic 
National Conventions. And in the realm of public and committee 
relations, for instance in the Democratic National Convention 
in Boston, months in advance the city sat down with the ACLU 
and the National Lawyers Guild, tried to sort out this very 
question of balance, you know. It is not just security or 
liberty, but how do we do all of those things all the time at 
some satisfactory level.
    I sometimes think of it as kind of a teeter-totter with a 
moving fulcrum that the agencies are always needing to assess, 
you know, how to achieve that balance in dynamic real-time 
terms.
    What happened in 2004, so recently after the attacks of 
2001, is that there was an intense preoccupation with 
protecting the well being of those attending the convention. 
And so it was indeed a secure convention, however, it came at 
some cost, and that cost was pretty well spelled out by the 
Federal Courts.
    Even after all of the theoretical negotiations at the last 
moment when they decided what areas were going to be set aside 
for the expression of dissenting political speech, there was a 
court challenge filed, and a Judge came in at the last minute, 
went out and had a site visit and said the symbolic sense of a 
holding pen where potentially dangerous persons are separated 
from others is what I see here--he said this is a brutish and 
potentially unsafe place for citizens who wish to express their 
First Amendment rights.
    However, neither this Judge nor any Judge, responsible 
Federal Judge, at the eleventh hour is going to step in and 
substitute her or his own judgment for that of national 
security professionals in the area. So the plea of the courts 
in this realm, when the case got up to the First Circuit Court 
of Appeals, that court observed there is good reason for the 
District Court's lament at the design of the demonstration 
zone, and it is in defense of the spirit of the First 
Amendment.
    Ms. Harman. Dr. Burton, can you summarize now--
    Dr. Burton. Yes, I will.
    Ms. Harman. --because time has passed.
    Dr. Burton. What the court said there is it was a plea, 
basically, in the future to say find some way to involve the 
federal courts earlier on rather than having it dropped in 
their lap at the last minute. And I think that there are ways 
in camera that that could be done.
    Thank you.
    In conclusion, there are two ways that local, state, and 
federal agencies responsible for managing the conventions might 
not adequately discharge their responsibilities. First is not 
to exercise sufficient vigilance to keep everyone healthy, 
safe, and secure, and the other is to do this so diligently and 
so single-mindedly that no meaningful freedom of expression is 
allowed and there is only one way they can succeed, which is to 
find a way to simultaneously achieve both of these goals at an 
acceptable threshold level.
    [The prepared statement of Dr. Burton follows:]

               Prepared Statement of Lloyd Burton, Ph.D.

    I am Lloyd Burton, a professor of law and public policy in the 
University of Colorado's School of Public Affairs, Downtown Denver 
campus. There I direct our School's Program Concentration in Emergency 
Management and Homeland Security, and teach a course on the law of all-
hazards management. On behalf of the university and of my school, I 
wish to express my gratitude for being invited to appear here today, to 
offer an academic perspective on the important issues you are 
examining. That being said, I must also add that the analysis, views, 
and opinions I offer here today are solely my own.
    My remarks are informed by a research project I am now conducting 
on governmental preparations for the 2008 National Democratic 
Convention, to be held in Denver in August of next year. The subject of 
the research is interagency and intergovernmental relations and 
coordination, with specific regard to four dimensions of those 
relationships: (1) the federal, state, and local laws that mandate the 
missions of these agencies, and empower them to carry out those 
mandates: (2) administrative and technological interoperability (that 
is, how well agencies at all level of government share necessary 
information and coordinate their activities); (3) the allocation of 
fiscal burdens; and (4) relationships between the agencies and the 
public--both with the residents of the Denver area, and with those 
attending the convention.
    In my remarks here today I will be emphasizing in particular the 
second and fourth of these dimensions: that is, administrative 
interoperability and relations with the public. This is because these 
two issues have been particularly significant ones in governmental 
management of similar events in the past, and I believe they may 
feature prominently in Denver's experience of hosting the 2008 
Democratic Convention. And a useful way of understanding them is to 
begin by placing them both within the legal context they share.
    The Constitutional Roots of Interagency and Public Relationships. 
In recent years, both private and public sector organizations have 
placed great emphasis on the importance of having a mission statement, 
the purpose of which is to succinctly state what it is the organization 
seeks to accomplish and how it seeks to do it. Such a need was not lost 
on the framers of the newly minted United States Constitution, as they 
were preparing the document for debate and (hoped for) adoption by the 
thirteen colonies.
    Their eighteenth century version of a mission statement is the 
Constitution's Preamble, and it consists of six spare yet potent 
phrases: "to form a more perfect Union, to establish Justice, insure 
domestic Tranquility, provide for the common defense, promote the 
general Welfare, and secure the Blessings of Liberty to ourselves and 
our Posterity. . .". Nowhere in the document do the framers give a hint 
as to whether these goals stand in a hierarchical or equilateral 
relationship, leaving most constitutional scholars to conclude that 
what the framers intended was for the federal government to 
simultaneously achieve all these goals all the time at some threshold 
level--the exact level of each one contingent on historical 
circumstances.
    The framers surely understood that insuring domestic tranquility 
and providing for the common defense on the one hand while 
concomitantly assuring the blessings of liberty on the other would 
require a balancing act, which is where institutions for the 
establishment of justice (principally the courts) come in. But while 
the framers may have been shy on details for how to achieve such a 
balance on a moving fulcrum, the ratifiers of the document were a good 
deal more explicit on the subject of what it means to secure the 
blessings of liberty to ourselves and our posterity.
    In fact, their condition for adopting the document as the supreme 
law of the land was that it be immediately amended to spell out what 
these liberties to be secured are--the Bill of Rights. And it is one of 
those rights--that ``of the people to peaceably assemble, and to 
petition the Government for a redress of grievances'' that features 
most prominently in planning for the 2008 Democratic National 
Convention.
    Interoperability. This dimension has two aspects: (a) the familiar 
problem of a lack of adequate technological interoperability; and (b) 
the less familiar but equally dangerous problem of inadequate 
administrative interoperability--the inability of agencies at all 
levels of government to share vital information and to adequately 
coordinate their efforts. Agencies experiencing this difficulty often 
point to conflicting statutory mandates (legal authority) as the 
reason. However, in the public management literature, a more commonly 
cited cause is that of organizational culture clash. This is a 
phenomenon that arises when two or more organizations with divergent 
norms, goals, and professional ethical orientations are compelled by 
circumstance to merge their efforts, resulting in conflicts over locus 
of control, and resistance to a public manager's worst nightmare: 
significant responsibility without adequate authority.
    Reference back to the preamble can help contextualize the nature of 
this problem. In the executive branch of the federal government, one 
cabinet-level department and a host of subordinate agencies within it 
have the sole mission of providing for the common defense (The 
Department of Defense). Others are responsible for promoting the 
general welfare (the Departments of Health and Human Services, 
Agriculture, Education, Transportation, Commerce, and Interior, and the 
EPA); another for ensuring domestic tranquility (Department of Homeland 
Security); and yet another for pursuing the cause of justice on behalf 
of the American people (Department of Justice).
    Interestingly, assuring the blessings of liberty is not the primary 
mission of any department or subordinate agency in the federal 
executive branch of government. Historically, that role has been left 
principally to the federal judiciary, the result of which has been a 
substantial amount of federal judicial oversight over executive branch 
behavior.
    Where does the authority of one agency stop and another's start? 
And equally to the point, where does the authority of one level of 
government end and its preemption by a higher level of government 
begin? These questions are of crucial importance in the governmental 
realm of the all-phases management of all forms of hazard, whether 
those hazards be naturally accidentally, or deliberately poised to 
threaten the safety and security of the American public.
    Our recent national history is replete with tragic examples of what 
can happen when disaster response agencies are unable to adequately 
communicate and coordinate their actions, from the terrorist attacks of 
9/11 to Hurricane Katrina. None of these agencies--civilian or 
military, federal, state, or local--was led or staffed by professionals 
intent on thwarting the efforts of another agency to save lives and 
care for the traumatized. Yet serious breakdowns in coordination 
occurred anyway.
    Each of these organizations has its own sense of internal cohesion, 
intense organizational loyalty and integrity, esprit de corps, and 
standards of acceptable practice and procedure. The problem is that 
these qualities, which make them so effective in accomplishing the 
single purpose missions for which they were created when functioning in 
stand-alone mode, are the very same ones that can impede their ability 
to work well together. And the same holds true for the professional 
values and qualities of the persons who lead them.
    Mitigating organizational culture clash among agencies responsible 
for collaborative all-hazards management is too broad a topic to cover 
in any detail here, although I have begun to do so elsewhere.\1\ 
Instilling an ethic of genuinely cooperative interagency and 
intergovernmental hazards management will be a work in progress for a 
long time to come, and that progress will be incremental. It may well 
await the next generation of all-hazards management leaders to bring 
this level of cross-agency functioning fully into effect, at least at 
the federal level. Meanwhile, below are some proposed measures that 
might accelerate the process.
---------------------------------------------------------------------------
    \1\ See Burton, ``The Constitutional Framework for All-Hazards 
Management: Mapping and Mitigating Organizational Culture Clash''. 
Paper given at the Federal Emergency Management Agency's 10th Annual 
Higher Education Conference, Emmitsburg, MD, June 4--6, 2007
---------------------------------------------------------------------------
    Two of the reasons such cooperative coordination is too often 
extolled in theory but slighted in practice are the reward structure 
for hazards management leaders, and the after-action reporting system. 
As to the first, currently there are relatively few meaningful 
incentives for agency leaders to yield over some measure of their 
decisional authority in the cause of better cooperation and 
coordination, and few sanctions when they fail to do so.
    Moreover, under the current after-action reporting system, federal 
agencies are basically instructed to fill out their own report cards. 
Under such an arrangement, it is not entirely reasonable to expect 
agency leaders to be too searchingly self-critical in characterizing 
their organization's behavior, in either a training exercise or an 
actual high-security event or disaster response. Being too honest might 
mean talking oneself out of one's job. This holds true especially in 
the realm of reporting on interagency cooperation or the lack thereof.
    More continuous training and cross-training among agencies called 
upon to cooperate in certain kinds of emergencies is one obvious 
remedial action that can and should be taken. However, the culture 
clash problem is deeply rooted enough that additional measures are also 
called for.
    Several state governments and some of the larger metropolitan ones 
use performance auditors external to their incident command systems--
and in some cases external to government altogether--to monitor agency 
actions across several dimensions (including cooperative interagency 
coordination). They have also been used to prepare after-action reports 
on major training exercises and disaster management events. This is a 
practice that, in my view, is worth experimenting with at the federal 
level as well.
    Thus, my principal suggestion on this matter is that a system of 
real-time performance auditing and after-action reporting be 
established for all National Special Security Events and all 
disasters--whatever their cause--in which federal agency aid is sought 
and rendered. Such a system would function in parallel with rather than 
as a replacement of the existing after-action reporting procedures now 
in place within federal agencies.
    This parallel system would be organizationally located completely 
outside the National Incident Management System command structure. This 
could be a specially trained team of performance auditors within the 
Inspector General's Office of the Department of Homeland Security, or 
within the Government Accountability Office. Alternatively, during its 
pilot phase, the design and implementation of such a system could be 
assigned to an all-hazards management performance auditing firm or 
consortium.
    If outsourced, however, it is imperative that the firm, 
organization, or consortium chosen for this task be held to the same 
standards of ``arms' length'' relationship to the agencies being 
audited as that of financial auditing firms to publicly traded 
corporations. The judgments of such an external auditor cannot be 
clouded by the potential for conflicts, of interest. Also, in order for 
such an external monitoring and reporting system to have the desired 
effect, there must be clearly understood criteria by which agencies and 
their leaders will be rated, as well as clearly recognized rewards for 
effective levels of cooperation, and sanctions for their absence.
    Public and Community Relations. The potential for conflict and 
culture clash inherent in trying to compel single-purpose agencies to 
perform multi-purpose functions is nowhere more evident than in the 
realm of government agency relations with the public. For instance, an 
agency whose sole function is law enforcement or national security has 
by nature of its mission a different attitude toward and relationship 
with the public than does one whose mission is the provision of 
emergency public health or other life-saving and life-sustaining public 
services.
    One example of this single purpose/multiple purpose conundrum is 
the role of the U.S. Secret Service relative to other emergency 
preparedness agencies. It is a sad fact of American public life that we 
as a nation have a history of periodically assassinating or attempting 
the assassination of our national political leaders. The future of our 
democracy relies in part our ability to ensure that our leaders can 
fulfill their duties free from intimidation and fear of death at the 
hands of those who violently oppose their actions.
    This crucial, democracy-preserving function is the sole mission of 
the Secret Service. This explains in part why, while the mission 
statement of its recently established cabinet-level home--the 
Department of Homeland Security--contains language about ``safeguarding 
our freedoms'', no such concepts appear in the mission statement of the 
Secret Service. The organization does not countenance any 
responsibility for preserving or even acknowledging the public's 
liberty interests. That is not what Congress established it to do. It 
is charged with the gravest of responsibilities--protecting the lives 
and well-being of our most senior national political figures--and 
nothing more.
    Yet at National Special Security Events, the Secret Service is 
charged with fulfilling this responsibility in coordination with other 
agencies at other levels of government (such as local police and fire 
departments, public health departments, and the National Guard) that 
have other and sometimes quite divergent duties to fulfill. These 
include protection of the public's health and welfare (at the behest of 
legislative mandates); and assuring the right of the people to 
peaceably assemble for a redress of grievances, within which context to 
speak freely on matters of public concern (usually at the behest of 
court orders).
    Under NSSE procedures, the Secret Service assumes incident command 
authority for all matters associated with the safety of the political 
leaders they have responsibility for protecting, which means that the 
missions of the agencies alluded to in the previous paragraph become 
subordinate to that of the Secret Service during the period it is in 
control. Yet this arrangement does not relieve these temporarily 
subordinate agencies of their legal duties to discharge their sometimes 
divergent duties.
    By way of example, just such an intergovernmental conundrum faced 
both the agencies and the federal courts in the days immediately prior 
to the 2004 Democratic National Convention in Boston, Massachusetts. 
Recognizing the dilemma described above, a year in advance of the 
convention, the City of Boston convened negotiations with local 
chapters of the American Civil Liberties Union and the National Lawyers 
Guild on the issue of how government should balance the safety and 
security of convention attendees (including national political leaders) 
with the rights of citizens to voice their views of the policies of 
those attending.
    Four months in advance of the convention, ACLU and NLG 
representatives expressed opposition to the city's plans, with the 
result that the city set about finding a venue for the expression of 
political dissent within closer proximity to the convention site. 
However, it was not until a week before the convention that the protest 
zone was actually physically established, at a former construction site 
under low-hanging commuter rail stanchions, and within which protesters 
would have no opportunity for direct contact with convention goers.\2\ 
Though closer to the convention site than the zone originally proposed, 
in the words of the court this ``demonstration zone'' resembled more an 
``internment camp'' than it did a forum for the peaceful expression of 
dissenting political opinions to national leadership.
---------------------------------------------------------------------------
    \2\ Coalition To Protest The Democratic National Convention, et 
al., Plaintiffs, v. City Of Boston, 327 F. Supp. 2d 61, 67 (D.Mass. 
2004).
---------------------------------------------------------------------------
    As a result, during this last week before the convention, groups 
wishing to express organized dissent against the policies of the 
Democratic Party and its leadership filed a motion in federal district, 
seeking a preliminary injunction against implementation of the security 
plan with its designated demonstration zone. The judge hearing the case 
visited the contested construction site/protest zone, and reported in 
his decision on the case that it conveyed
        the symbolic sense of a holding pen where potentially  
        dangerous persons are separated from others. Indeed, one cannot 
        conceive of what other design elements could be put into a 
        space to create more of a symbolic affront to the role of free 
        expression. ..the design of the DZ is an offense to the spirit 
        of the First Amendment. It is a brutish and potentially unsafe 
        place for citizens who wish to exercise their First Amendment 
        rights.\3\
---------------------------------------------------------------------------
    \3\ Id. at 74--76.
---------------------------------------------------------------------------
    Nevertheless, in his decision, handed down the weekend before the 
convention was to begin, he was understandably unwilling to substitute 
his judgment for that of the U.S. Secret Service and the Boston Police 
Department as to what measures were necessary to protect the health, 
safety, and security of convention goers and national leaders. The 
judge held that ``the potential hardships to the City, which must 
protect delegates. . .and the public interest, which includes the 
delegates' safety in addition to the demonstrators' free speech, 
counsel against issuance of a preliminary injunction.'' \4\
---------------------------------------------------------------------------
    \4\ Id. at 77.
---------------------------------------------------------------------------
    On appeal from the district court decision, the U.S. Court of 
Appeals for the First Circuit came to the same conclusion, and for the 
same reasons.\5\ Appeals Court Judge Lipez's concurring opinion placed 
particular emphasis on the severe time constraints placed upon the 
courts in this last-minute appeal of the security plan:
---------------------------------------------------------------------------
    \5\ Bl(a)ck Tea Soc'y v. City of Boston, 378 F.3d 8, 10 (1st Cir. 
2004)
---------------------------------------------------------------------------
    Thus I return to the point where I began--the inescapable need for 
judges and litigants to have adequate time to resolve these difficult 
First Amendment/security issues. Although the district court did a 
superb job under difficult circumstances of analyzing the competing 
interests at stake and offering its best judgment as to how those 
interests must be addressed, the press of time inescapably constrained 
its ability to grant any of the relief sought by the appellant. For us, 
even further removed from the scene and from the facts, and with the 
Convention already under way, the constraints were even greater.\6\
---------------------------------------------------------------------------
    \6\ Id. at 19.
---------------------------------------------------------------------------
        This appellate court concurrence closes with some advice for 
        those facing these same planning challenges in preparation for 
        the 2008 national political conventions: There is good reason 
        for the district court's lament that ``the design of the DZ is 
        an offense to the spirit of the First Amendment.'' In the 
        future, with more time for court intervention when court 
        intervention is needed, with the choice of more flexible sites 
        by event planners, and with procedures in place for giving the 
        court the event specific information it should have, that 
        spirit, hopefully, will not be offended again.\7\
---------------------------------------------------------------------------
    \7\ Id.
---------------------------------------------------------------------------
    In reading both the district court and appellate court opinions, 
one gets the impression that the federal judges in these cases felt 
caged by time and circumstances in much the same way that political 
dissenters were physically caged at both the Democratic and Republican 
National Conventions of 2004.
    In my view, agency leaders at all levels of government would be 
well advised to follow Judge Lipez's advice on this matter, as they 
plan and prepare for the 2008 national political conventions. There is 
plenty of time now for consultation with all the parties that be on the 
issue of how to balance security concerns with First Amendment rights 
to the expression of political dissent.
    The City of Boston also started such a planning effort a year 
before the convention. But what all parties evidently thought might be 
a workable agreement broke down at the last minute, when the specifics 
of the location and management of the demonstration zone were 
disclosed. By this time it was far too late for the courts to fashion 
anything approximating a remedy that would adequately address the two 
vital public interests of safety and security on the one hand and 
meaningful time, place, and manner expressions of political dissent on 
the other. Thus, in planning for the 2008 conventions, it will be 
necessary to take the process a step further to assure that the courts' 
advice is heeded--principally by involving the federal courts at an 
earlier stage in the planning process, as elaborated on below.
    The task is made no easier by the fact that the highest profile 
protest organization planning to voice dissent at the 2008 convention 
here in Denver is named ``Recreate '68''. As explained on its website, 
the name is a reference to the 1968 Democratic National Convention in 
Chicago, Illinois. This was an event at which thousands of protesters 
swarmed the streets of Boston, expressing opposition to the party 
establishment and to the presidential front-runner, for continuing to 
support the war in Vietnam. It turned out to be the most violence-
plagued national political convention in twentieth century American 
political history.
    Later investigation showed that the greatest number of violent 
confrontations with protesters were felony assaults by members of the 
Chicago Police Department. Yet for this 2008 protest group to even 
choose this name is disquieting. Although violent confrontation is 
nowhere advocated on its website in text that might be considered its 
mission statement (as of July 27, 2007), neither is ``peaceable 
assembly'' for the redress of grievances, or a pledge to nonviolent 
tactics.
    Furthermore, the organizational icon posted at Recreate '68's 
website is a raised, closed fist. So it is a reasonable enough 
assumption on the part of agencies preparing for the convention that 
they should plan for the possibility of sometimes violent 
confrontations with protesters--even if those bent on violent 
provocation comprise only a small percentage of the dissenting public.
        Yet as the trial court judge asserted in the 2004 Boston 
        decision,
        Protesters, demonstrators, and dissidents outside a national 
        political convention are not meddling interlopers who are an 
        irritant to the smooth functioning of politics. They are 
        participants in our democratic life. The Constitution commands 
        the government to treat their peaceful expressions of dissent 
        with the greatest respect--respect equal to that of the invited 
        delegates.\8\
---------------------------------------------------------------------------
    \8\ Coalition, supra note 2, at 77.
---------------------------------------------------------------------------
    What happened at both the Democratic and Republican National 
Conventions in 2004 is that members of the public expressing dissent 
against the policies of convention goers were essentially quarantined, 
as if they had a dangerous communicable disease. And by limiting the 
number of persons allowed inside the demonstration zones as well as 
limiting the ingress and egress of those being allowed to express 
dissent within these zones, the ability of quarantined dissenters to 
effectively convey their message was almost entirely thwarted.
    This is the functional equivalent of trying to prevent the spread 
of tuberculosis by forcibly confining everyone who has a cough. It 
categorizes everyone who disagrees with the policies of the regime in 
power as a potential enemy of the state--automatically suspect by 
virtue of their decision to express dissent. Unchecked, this automatic 
suspicion of and physical confinement of dissent at political events 
may pose a greater danger to the values American society purports to 
cherish than do threats to our safety and security.
    To remedy the problems the federal courts identified at the 2004 
conventions, perhaps the most effective measure that can be taken is to 
include the federal courts at a much earlier stage of the convention 
planning process than was the case in 2004, as Judge Lipez recommended 
in the appellate court ruling on the Boston case. Federal judges 
frequently review security-sensitive information in camera, out of 
public view and off the public record, in order to ensure that the 
proper balance between liberty and security interests is being struck. 
The same could be done much earlier in the planning process for the 
2008 convention than was the case in 2004.
    No responsible federal judge will substitute his or her judgment 
for those of national security and law enforcement professionals on the 
eve of a National Special Security Event, which is the decision 
situation the courts found themselves facing in Boston in July of 2004. 
By contrast, allowing for some form of judicial monitoring if not 
oversight of the free speech accommodation planning for the 2008 
national conventions could go a long way toward ensuring that the 
agencies have learned enough from past experience to do a better job of 
defending democracy in every sense of those words.
    Philosopher George Santayana's observation that those who cannot 
learn from history are doomed to repeat it certainly applies to this 
situation. The 2004 national political conventions took place a scant 
three years after the most deadly terrorist attacks on American soil 
since the founding of the republic. Authorities were understandably 
apprehensive that these conventions would be perfect opportunities for 
the next offensive in this conflict. Yet while the conventions were 
safe from terrorist assault, considerable harm was done nonetheless. 
The casualty was the democratic process itself, as the desire to 
express political dissent became a reason for segregation, confinement, 
and social stigmatization.
    In conclusion, there are two ways the local, state, and federal 
agencies responsible for managing the 2008 conventions might not 
adequately discharge their responsibilities. The first is to not 
exercise sufficient vigilance to keep everyone healthy, safe, and 
secure. The other is to this so diligently and so single-mindedly that 
no meaningful freedom of expression is allowed. And there is only one 
way they can succeed, which is to find a way to simultaneously achieve 
both of these goals at some acceptable threshold level.
    As a nation and as a government, we have the ability to learn from 
our history on these matters. What remains to be seen over the course 
of the next twelve months is whether we also have the will to do so. 
One can only hope that we do, since the future of the American 
democratic process depends upon it.

    Ms. Harman. Thank you very much. Love the ending. Really 
true.
    Dr. Burton.
    Sorry it was so long in coming.
    Ms. Harman. No, but to remind us all, there will be 
enormous international attention on these conventions, so not 
how we keep people safe is going to be a subject of great 
interest. And if the appropriate respect for liberty and 
freedom can be factored in on the front end, obviously, that 
makes for a much better story.
    I now yield myself five minutes for questions. Chief Oates, 
first of all, let me commend you and your police force for what 
you are offering to do next year. Obviously, reimbursement is 
an issue, but I heard you say that you are canceling all 
vacations and leaves and you are putting your people--and I 
assume yourself--on 12-hour tours. I only wish the Iraqi 
Parliament might do the same thing.
    [Laughter.]
    So let me thank your folks.
    I want to ask you, because you are not only a producer of 
intelligence information, but you are a consumer of 
intelligence products, you have talked about how you need more 
connectivity with the State.
    Chief Oates. Right.
    Ms. Harman. But I want to ask you about the products that 
are currently produced by the CIAC. How useful are they?
    Chief Oates. The CIAC is very good at forwarding to us 
information that provides a local and national perspective on 
events that have occurred and their potential for us. We all 
recognize that with the limited resources that the CIAC has, in 
order to bring it to the next step where it is actually 
processing information and producing actionable intelligence 
about, say, a significant robbery problem in the Denver metro 
area, it needs the kind of linkage and information and data 
system and robust analytical tools that don't currently exist, 
and it needs resources.
    The police leadership in the Denver metro area has met with 
the new State Director of Public Safety about this issue and 
has offered that if the right setting can take place, and if 
the State can take the lead in building the infrastructure, we 
will find a way to kick in resources, so that we can take these 
CIAC to the next level where it is a functioning all-crimes 
criminal intelligence center for us and--but with the limited 
resources that the state has had, Major Wolfinbarger and the 
State Patrol have done an exceptional job on providing us with 
information about what is happening locally and nationally 
around the terrorism issues and threat advisories and watch 
information and that kind of stuff.
    So what we are really talking about is a broader vision 
similar to--I know you folks know something about fusion 
centers that have existed elsewhere and have been stood up for 
quite a while, such as the ones in New York and California and 
Florida and Texas, that perform that function that our CIAC 
doesn't readily yet perform.
    But it is a grand vision of all of us, and we are very 
excited about the conversation with the State leaders about 
getting to that.
    Ms. Harman. Well, let me just comment, and I would like 
Major Wolfinbarger to also respond. We are bullish on fusion 
centers, but there is about to be published, or maybe it has 
been published, a GAO study that is quite critical of their 
current effectiveness. So I think our view would be that there 
is room for improvement.
    Major, do you have a comment on products that you produce?
    Major Wolfinbarger. Yes, Madam Chair. And, you know, one of 
the reports is the Congressional Research Service that talks 
about the issues and options for Congress as it relates to 
state fusion centers. Charlie Allen, who oversees the 
intelligence operations as you know for the Department of 
Homeland Security accurately I think points out that it is a 
beginning process.
    But we have got about two years of evolution, and, as the 
Chief accurately points out, much of it from a state standpoint 
deals with resources, which at the end of the day--and when we 
are looking for accountability, nobody really cares whether or 
not the resources are there.
    The expectation is the job has to be done, so what we have 
done is worked as diligently as possible to ensure that those 
very limited assets that we have, which frankly when you are 
talking inside of the state fusion center an average staffing 
of about five during regular business hours of ensuring we can 
turn out the best product possible. In terms of that expanded 
functionality that is specific to crimes and all crimes is an 
added functionality we are looking to plug into the state CIAC 
to ensure that it has a broader value to more end users from a 
law enforcement standpoint.
    Ms. Harman. Well, we applaud that answer.
    Finally, let me just point out to all of you, but this is 
directly to Dr. Burton, that in the 9/11 bill that was just 
signed into law by President Bush last week, we have stood up a 
Privacy and Civil Liberties Oversight Board. This is something 
that we all felt was a gap in our response to 9/11, and that 
Board will be Congressionally confirmed.
    It will have reach across the executive branch to ensure 
privacy and civil liberties in a consistent way by federal--
protection of privacy and civil liberties in a consistent way 
by federal agencies, and it will identify best practices and 
require individual agencies to develop strategies to adopt and 
implement them.
    So we are working on this. It is a key concern of mine. I 
really do think we have to get security and liberty right, or 
we will get them both wrong.
    I now yield five minutes to Mr. Reichert for questions.
    Mr. Reichert. Thank you, Madam Chair.
    Mr. Wolfinbarger, you talked about your Rubicon teams, and 
the function that they provide in coordinating with the 
Colorado Information Analysis Center. How do they interact, 
then, with the MACC?
    Major Wolfinbarger. We co-house, as you are going to see 
this afternoon, the State critical infrastructure protection 
team in the same building, in the same facility as the state 
fusion center, which is in the same building that houses the 
emergency operations center, which collectively comprise our 
MACC in Colorado.
    From an architectural standpoint, it makes very good sense. 
We have had some opportunities to be able to exercise that, 
both operationally and in a very meaningful way with past 
issues about a tornado in Holly, as well as the blizzards that 
hit our state at the end of this past year. So we co-house, 
which I think increases the communication, and does provide for 
some better threat streams into the critical infrastructure 
protection team, which again from a staffing standpoint sets at 
three.
    But it is a very capable team, and we work very closely 
with our partners at the Colorado National Guard and the DoD 
side with their CIPMA teams, which is their critical 
infrastructure protection team, that essentially when we began 
our program we modeled after. So we kind of have a two-pronged 
approach in Colorado that seems to be very effective.
    Mr. Reichert. Great. Thank you. You also mentioned that you 
have a website where people can report activity or provide--
    Major Wolfinbarger. Yes.
    Mr. Reichert. --some lead that may be investigated by the 
JTTF.
    Major Wolfinbarger. Correct.
    Mr. Reichert. Have you noticed an increase in the number of 
reports coming in? Are people more and more aware? And how do 
you--and you mentioned that they were vetted. How are those 
reports vetted through your website and/or telephone report 
process?
    Major Wolfinbarger. Yes, sir, Congressman. We rolled out 
that web reporting tool September 11, 2006. And what I can tell 
you from a historical perspective, I can tell you that, yes, it 
has increased the work--inputs into the fusion center, which is 
good. In 2005, 45 cases came into the state fusion center; in 
2006, 166. Of those 166, 154 were referred for investigation.
    Total cases for 2007, as of August 2, was 253 cases--
significant increase again--223 referred for investigation. 
Part of the vetting process resides in both the analyst taking 
a look at what information comes in, the quality of the 
reporting source, the quality of information that comes in, 
works with our analyst from the FIG, with the FBI, works with 
the other analyst to ensure that the information appears to be 
viable, and then we pass it on for further vetting through 
those law enforcement agencies laterally, and then again 
vertically up through the JTTF, and, if it is appropriate, into 
the NOC in Washington, D.C. to enhance that communication and 
information sharing environment.
    Mr. Reichert. Thank you.
    Chief, I happened to be the--I was a SWAT Commander back in 
1993 during the Asian-Pacific Economic Conference. And I worked 
with the sheriff in trying to get our reimbursement cost. It 
didn't work.
    [Laughter.]
    So you have got a battle ahead of you. I just wanted to 
pass that along.
    And I also wanted to ask you a question about--you know, I 
have been in the situation, too, where you cancel vacations, 
you ask people to--you transfer them from their assigned units 
to patrol or to other units, so you can handle this 300-officer 
effort that is coming up soon. How do you find the unions' 
cooperation in--you know, as you look at moving people around?
    And the reason I ask that question is that, you know, we in 
Congress are always looking at some of the other federal 
agencies that aren't unionized yet, and the excuse always is--
and I have five unions within my sheriff's office, so I kind of 
know where you are going to go with it. I think it is good to 
get it on the record, though.
    Chief Oates. Well, all I can tell you is no objection has 
bubbled up yet, but nor have the details bubbled up either. But 
I will tell you that, in general, the response within the 
organization is people see this as a policing challenge, an 
opportunity, and we are looking forward to it. So I don't have 
any particular anxieties about union objections. I think our 
labor leaders are very supportive of the notion that we need to 
support Denver, so I just don't see that as an issue.
    Mr. Reichert. I found the same to be true and expected that 
answer. I wanted it to get on the record, though. Thank you.
    Dr. Burton, I just want to mention briefly--you really 
touched on the four things that I think, as a law enforcement 
officer, and all of those in the room who are involved in 
protecting our nation and our community really take to heart, 
upholding our laws, the community public relations is really 
something, is--you know, community-oriented policing is one of 
those programs that helped us even reach further into the 
community.
    Administrative interoperability, is that--are you referring 
to the old stovepipe sort of construction in an organization? 
Is that getting beyond that, is what I am saying.
    Chief Oates. Sure.
    Mr. Reichert. Yes.
    Chief Oates. What I am really trying to get it there is how 
good are agencies that come from a traditional command and 
control structure, how well are they learning to do things 
differently than they have traditionally been enculturated to 
do them in the past.
    And it is basically the challenges of the naturally, 
accidentally, and intentionally caused disasters of this last 
decade that have really brought into focus the need to do that 
at a level and with a level of effectiveness that they have not 
been called upon to do in the past. And they are all doing 
their very best to achieve that goal.
    But I--it is the idea of sort of the more sources of light 
that can be cast upon the same object, the better illuminated 
it is and the better able one is to see it clearly. So I am 
simply suggesting that we have an additional source of light be 
cast on the continuing efforts of these agencies to work 
effectively and cooperatively together, especially in an area--
if there are areas in which the law as to where the authority 
of one agency stops and the other one starts may be a bit big 
or untested.
    Mr. Reichert. Appreciate it. Thank you.
    I yield.
    Ms. Harman. You make me think about whether we have 
political party interoperability in Congress, and whether there 
would be any outside source that would think we do. Sadly, we 
have great room for improvement, and maybe this Subcommittee is 
best practices. What do you think?
    Chief Oates. I think it is.
    Ms. Harman. There we go.
    Now, Mr. Perlmutter, questions for five minutes.
    Mr. Perlmutter. Thanks, Madam Chair. And, Chief, I noticed 
Rennie Peterson, another councilwoman, was in the audience and 
I think your Mayor and your council are going to be very happy 
that you are as aggressive as you are about making sure that 
this city is compensated for its contributions to this whole 
effort. And I appreciate that.
    Dr. Burton, you had an interesting comment about this real-
time auditing. And it actually is something that we talked 
about on a whole different subject, which was Katrina--
    Dr. Burton. Yes.
    Mr. Perlmutter. --where the emergency management head of 
New Orleans found that there was this clash between the mission 
and compliance, and that those--the Chief would be on the 
mission side, the Major would be on the mission side, that if 
there is a disaster you have just got to take care of it.
    Dr. Burton. Yes.
    Mr. Perlmutter. And you worry about counting the beans 
later.
    Dr. Burton. Yes.
    Mr. Perlmutter. And then, the compliance, the GAO or the 
Inspector General then comes in afterwards and says, ``Well, 
why did you, you know, pay so and so to lift this, you know, 
big branch off this guy's house? Why didn't you, you know, bid 
it out?'' I mean, how do you see your real-time auditing work 
in that, or how do you see your real-time auditing work with 
this national convention?
    Dr. Burton. Right. There are two components to that, two 
ways it can be addressed I think. First is just more training, 
more interagency training upfront. And as everyone at this 
table knows, that is not a cost-free exercise. You know, you 
have to invest in that just like you have to invest in 
protection at the convention.
    The more training there is, the more those kind of 
unforeseen events that arise you can begin to brainstorm and 
think about ahead of time. What I am suggesting with regard to 
the real-time performance auditing is that that auditor would 
have no role to play at all in the command structure. He would 
be completely outside of it.
    What I would like to see happen here with regard to the 
lead-up to Democratic National Convention is how well during 
this year of exercises, and what not, it seems that everyone 
has been able to learn the lessons of the past, and how good 
they are at identifying potential areas of--you used a good 
term there and public management leaders call it organizational 
culture clash. If it looks as if that may be beginning to 
arise, how quickly can it be identified and ameliorated?
    I know the agencies are on their toes as far as doing that 
as well. I think some kind of an external monitoring facility 
could have the effect of simply acting as a gentle reminder, 
not as a cop, but simply as an observer. And then, at the end 
of the day, would also file a parallel after-action report to 
complement the ones that the agencies have done. Again, the 
multiple sources of light.
    Mr. Perlmutter. Okay. Thank you.
    Chief, and Major Wolfinbarger, I don't know if it was with 
you gentlemen or one of the other chiefs in the area, but a 
concern--and we have heard this at a couple of our other 
hearings, is that some of the information that you get from the 
CIA or the NSA or the counterintelligence agencies, as it comes 
down to the CIAC or to our fusion center, is so washed out--I 
don't know what the right word is--it is so vanilla that you 
could get virtually the same information on CNN just watching 
the TV.
    Do you feel that the federal agencies are providing you 
with real information that you can use to benefit the people of 
our community? And, you know, you are both local officers. I 
probably couldn't have asked that of the Secret Service guy, 
but--
    Chief Oates. I think there has been a change in the federal 
law enforcement order after 9/11 with regard to sharing 
classified information. I think it is safe to say that 
nationally police chiefs are extremely demanding of local--of 
federal agencies and their jurisdictions with regard to what we 
perceive to be our need to know, and we really don't want to 
hear about classifications and security clearances and all 
those things. They are irrelevant to us when it comes to 
protecting our jurisdictions.
    All of us in Colorado have had that conversation with the 
FBI leadership, and we really do think the world has changed 
since 9/11. The promises have all been made. If there is any 
threat to your community, we will share it with you, regardless 
of your status, classification, in terms of--many of us hold 
security clearances, but they know that we don't care about 
security clearances.
    One of the frustrations I think after 9/11 was that--and 
one of the lessons of the 9/11 report and the report of 
Congress was that security clearances were a barrier to sharing 
information. And I think it is fairly clear to our federal 
partners that that cannot happen in the future.
    I have every confidence that as we set up the MACC, and we 
set up the processes for sharing information, in connection 
with this major national security event, that which local law 
enforcement needs to know to protect it, to protect its 
citizens, will be shared, because if nothing else there will be 
holy hell for the federal agencies if it is not. So I don't 
have any particular anxiety in that area.
    Mr. Perlmutter. Major?
    Major Wolfinbarger. I would like to--you know, the issue 
with security clearances, we have, both through the Federal 
Bureau of Investigation as well as the Department of Homeland 
Security have been very accommodating in terms of ensuring that 
we can get personnel those security clearances as needed, and 
would concur with the Chief's sentiments regarding that that 
flow of information could at times be inhibited. But I really 
do believe that the key to effective information sharing from a 
federal to a state to a local is really specific to leadership 
within those offices.
    What I can say is our outgoing SAC for Denver FBI, Rick 
Powers, who is an AD now back in Washington, D.C., being 
replaced by Special Agent in Charge Garrity, as well as 
incoming SAC for Secret Service Ron Perrea, have a--not only an 
evident compliance and also an evident desire to engage with 
state and local players, but that is where the key really 
resides. And in Denver we are very fortunate to that end.
    Chief Oates. And if I could, there are enough of us--there 
are enough officers in the larger agencies who have Top Secret 
security clearances who will be represented in the MAC to 
protect our interests and our particular perspective. So I--it 
is something that will be handled.
    Mr. Perlmutter. Thank you.
    Ms. Harman. Thank you.
    Let me yield to Mr. Reichert for some final comments, and 
then I will make some myself.
    Excuse me. Interruption. Ed Perlmutter forgot to recognize 
two people.
    Mr. Perlmutter. My apologies. There is a State Senator--
Suzanne Williams is in the audience, and I had breakfast with 
her today. And Governor Bill Ritter has joined us, and I just 
want to thank him for being here. And I know he is going to 
participate with us in talking about these issues with the 
press. Thank you, Governor, for being here.
    Ms. Harman. Thank you all for being here.
    Mr. Reichert?
    Mr. Reichert. I will keep my comments brief. Again, just--I 
want to thank everyone for being here today. Pleasure to be 
here in Denver. Your testimony, both panels were excellent, and 
enjoyed meeting all of you. And look forward to working with 
you, and thank you so much for what you do. And we know we are 
going to have a very safe convention here in Denver with 
professionals that have been represented here today. Thank you 
all very much.
    Ms. Harman. Thank you, Mr. Reichert.
    And let me just add a couple of comments. First of all, 
Chief Oates, there is a place for a classification system. I 
know you know that. It is to protect sources and methods. 
People can die if sources are revealed, and sources can dry up 
and we can get no further information.
    Having said that, however, I think we all feel on a 
bipartisan basis that our current classification system is 
broken. Too much is classified and the means for sharing 
classified information vertically with you, with state and 
local first preventers, is not adequate. And so we are working 
on legislation. I hope we will have it ready soon.
    We have held numbers of hearings to try to get to the best 
ideas, but we are working on legislation to simplify and limit 
our classification system just to protect what our government 
has a real obligation to protect. And I think the outcome of 
that, if we can get there, will be pleasing to you.
    Let me just conclude also by saying, as we all have, that 
we appreciate your attendance. We also appreciate your 
challenge. Next year will be a major national security event in 
Denver. It will also be a major political event in Denver. And 
it will be a showcase for how the U.S. protects security and 
freedom, and we wish you every success. And some of us will 
actually be there.
    So thank you all for coming. And, Governor, it is big honor 
to have you here. Thank you. This hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
